<html>
<title> - THE PATTEN COMMISSION REPORT ON POLICING IN NORTHERN IRELAND</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
      THE PATTEN COMMISSION REPORT ON POLICING IN NORTHERN IRELAND

=======================================================================

                              OPEN MEETING

                               BEFORE THE

                            SUBCOMMITTEE ON
               INTERNATIONAL OPERATIONS AND HUMAN RIGHTS

                                 OF THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 24, 1999

                               __________

                           Serial No. 106-103

                               __________

    Printed for the use of the Committee on International Relations




                    U.S. GOVERNMENT PRINTING OFFICE
64-523 CC                   WASHINGTON : 2000




                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE P. RADANOVICH, California     JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                                 ------                                

       Subcommittee on International Operations and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
WILLIAM F. GOODLING, Pennsylvania    CYNTHIA A. MCKINNEY, Georgia
HENRY J. HYDE, Illinois              ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
CASS BALLENGER, North Carolina       EARL F. HILLIARD, Alabama
PETER T. KING, New York              BRAD SHERMAN, California
MATT SALMON, Arizona                 WILLIAM D. DELAHUNT, Massachusetts
THOMAS G. TANCREDO, Colorado         GREGORY W. MEEKS, New York
            Grover Joseph Rees, Subcommittee Staff Director
                      Douglas C. Anderson, Counsel
              gGary Stephen Cox, Democratic Staff Director
                  Nicolle A. Sestric, Staff Associate



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Right Honorable Chris Patten, Chairman, Independent 
  Commission on Policing for Northern Ireland; Accompanied by 
  Senator Maurice Hayes..........................................     4
Michael Posner, Executive Director, Lawyers Committee for Human 
  Rights.........................................................    16
Michael Finucane, Son of Patrick Finucane, Slain Defense Attorney    19
Maggie Beirne, Committee on the Administration of Justice, 
  Belfast........................................................    35
Julia Hall, Northern Ireland Researcher, Human Rights Watch......    39
Jane Winter, Director, British Irish Rights Watch................    44

                                APPENDIX

The Honorable Christopher H. Smith, a Representative in Congress 
  from The State of New Jersey, Chairman, Subcommittee on 
  International Operations and Human Rights......................    56
The Honorable Benjamin A. Gilman, a Representative in Congress 
  from New York and Chairman, Committee on International 
  Relations Committee............................................    60
Mr. Chris Patten.................................................    62
Mr. Michael Finucane.............................................    65
Mr. Michael Posner...............................................    71
Ms. Jane Winter..................................................    90
Ms. Maggie Beirne................................................    98
Ms. Julia Hall...................................................   105

Additional material submitted for the record:

Letter to Mr. Chris Patten, submitted by Rep. Gilman.............   111
Excerpt from the House of Commons, submitted by Rep Gilman.......   113
Submission from Irish American Unity Conference..................   115
Submission from The Brehon Law Society...........................   123



      THE PATTEN COMMISSION REPORT ON POLICING IN NORTHERN IRELAND

                              ----------                              


                       Friday, September 24, 1999

                  House of Representatives,
                      Subcommittee on International
                               Operations and Human Rights,
                              Committee on International Relations,
        Washington, D.C.
    The Subcommittee met, pursuant to notice, at 9:45 a.m. In 
Room 2172 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the Subcommittee) Presiding.
    Mr. Smith. Let me just begin by saying that the purpose of 
this public meeting is for the Subcommittee with primary 
jurisdiction over human rights to review the recent publication 
``A New Beginning: Policing in Northern Ireland,'' and to hear 
from its principal author, the Right Honorable Chris Patten. 
This report was released on September 9 by the Independent 
Commission on Policing for Northern Ireland which was 
established by the Good Friday Agreement in April 1998.
    [Copies of the report are available by contacting the 
Subcommittee office.]
    Mr. Smith. Mr. Patten, welcome to the Congress and thank 
you for your generous commitment of time and talent in 
reviewing policing in Northern Ireland. We are grateful for 
your presence.
    After 15 months of exhaustive study and outreach which 
included over 10,000 people participating in public meetings; 
1,000 individuals speaking at those meetings; more than 3,000 
submitting written reviews; and countless small group meetings, 
there is little doubt that the Commission moved comprehensively 
and aggressively to pursue its mandate for ``a new beginning in 
policing in Northern Ireland with a police service capable of 
attracting and sustaining the support of the community as a 
whole.''.
    With over 175 recommendations for change and reform, it is 
our sincerest hope that the recommendations contained within 
the report become the starting point, the floor, and not the 
ceiling, for policing reforms in Northern Ireland. This report, 
promising because of the recommendations it contains, yet 
disappointing for the problems it chose not to tackle, must be 
a base from which the human rights and policing reforms are 
built, rather than a high-water mark that recedes over the next 
few weeks of public review.
    I am encouraged by the Commission's own plea that ``the 
essentials of our recommendations present a package which must 
be implemented comprehensively. We advise in the strongest 
terms against cherry-picking from this report.'' .
    I am encouraged by the Commission's candid admission ``that 
policing was at the heart of many of the problems that 
politicians have been unable to resolve in Northern Ireland and 
by the report's definition of policing as the protection of 
human rights.'' The Commission's stated desire to reorient 
policing onto an approach based on upholding human rights is a 
recognition that Northern Ireland's police force, the RUC, has 
failed at protecting human rights for Northern Ireland's 
citizens for years.
    Today's public session is the fourth in a series of 
meetings held by this Subcommittee as it has focused on human 
rights abuses in Northern Ireland. In each of our previous 
proceedings, the subject of policing and human rights abuses by 
the RUC was central. In fact, next week will mark the 1-year 
anniversary of testimony we received from defense attorney 
Rosemary Nelson who told us that she feared the RUC, had been 
harassed by it, and even physically assaulted by RUC members. 
She received death threats, and she told us right from where 
you are sitting, Mr. Patten, that she literally feared for her 
life. We find it appalling that still not a single RUC officer 
has been disciplined for the death threats and other 
harassments that she endured.
    I am disappointed that while the Commission acknowledged 
that the RUC has had several officers within its ranks over the 
years who have abused their position, it nevertheless declined 
to comment on a vetting mechanism to rid the force of those who 
have committed egregious acts of abuse and violence. It is 
worth noting with regret that the RUC officers who harassed 
Rosemary Nelson and perhaps were connected with her 
assassination are still on the job today. Even the police 
officers who beat David Adams while he was in detention at 
Castlereagh in 1994 have never been criminally prosecuted.
    Last year, after meeting with Param Cumaraswamy, the U.N. 
Special Rapporteur on the independence of judges and lawyers--
and he, too, came and spent some time with our Committee and 
spoke again from where you sit--I know that the Members of this 
Subcommittee wrote to the Commission asking that the Commission 
address the recommendations put forth by the Special Rapporteur 
regarding RUC harassment of defense attorneys and the 
establishment of a judicial inquiry in the allegation of 
collusion into the murder of defense attorney Patrick Finucane. 
Regrettably, the report fails to make recommendations that 
would curb the harassment of defense attorneys, and there is 
not a mention of the ongoing, still evolving implications of 
RUC-Special Branch complicity in Finucane's murder. Unless I 
missed something in the report, Special Branch, long tainted 
with allegations of collusion, will simply merge with the Crime 
Branch. Perhaps you can elaborate on that during your comments.
    The Commission spent a great deal of time on 
recommendations for the reductions of the size of the force and 
trying to correct the imbalance, and I think that provides some 
very good recommendations that hopefully will be followed.
    Let me just conclude by saying--and I would ask unanimous 
consent among my colleagues that my full comments be made a 
part of the record--we do have concerns about plastic bullets 
and we did note that you had recommended there be a diminution 
in their use while other methods of crowd control are looked 
at. But it does strike me that they can be used in the rest of 
the U.K. The hope would be that these very lethal batons would 
be banned, as has been recommended by numerous bodies, 
including the United Nations.
    We also take note that we would have hoped the Emergency 
Powers would have been done away with. You seemingly say that 
and recommend that, and yet some of the verbiage that follows 
seems to render that recommendation moot: Perhaps it ought to 
continue ``as long as there is a problem.'' The Emergency 
Powers are one of the sources, we believe, of the continued 
problems or troubles in Northern Ireland, and we would hope 
that they would be eliminated as well.
    [The prepared statement of Mr. Smith appears in the 
appendix.]
    Mr. Smith. I would like to yield to my good friend, the 
Chairman of the Full Committee, Mr. Gilman, for any comments he 
might have.
    Mr. Gilman. Thank you for putting together today's 
important and timely meeting regarding some very critical 
events in the history of Northern Ireland. I want to welcome 
now Commissioner Patten, former Chairman Patten of the Policing 
Commission, and Senator Maurice Hayes, a Member of the 
Commission, for their good work and constructive suggestions.
    Mr. Chairman. Your tireless efforts to help put respect for 
human rights and the critical role of defense counsel on top of 
the agenda for the new North of Ireland are what we all want 
and expect under the Good Friday Accord to help bring a better 
understanding.
    We also want to welcome Ambassador Heyman who is here with 
us from the European Union, and his good staff. We are indeed 
fortunate to have Chairman Patten, now newly confirmed 
Commissioner for Exterior Relations for the European Union, who 
recently rendered his final report and findings under the terms 
mandated by the Good Friday Accord for a new beginning for 
policing in Northern Ireland.
    Few issues, day to day, impact more the lives of the people 
of the north, than their relationship with local police. Police 
can either serve to protect the people or be part of the 
problem, not the solution, in a divided community as in the 
north.
    As our House Speaker Hastert said the day that the Patten 
report was issued, ``Acknowledging that there is a problem is 
the first step in finding a solution to that problem,'' and the 
Patten report is useful for that purpose. It has many 
constructive proposals. I support the sentiments of the Speaker 
and have called the Patten report a good first step. The 
struggle for change in policing in the North is not over, its 
just begun. We now await the British Government's full and 
prompt implementation of all of the Commission's 
recommendations which should be just the beginning, not the 
end, of reform. I think its implementation will be whether or 
not this report will be successful in the long run.
    The ultimate test and real change will come when the 
minority nationalist Catholic community can also call the 
police service its own and reflect that support by joining the 
new police service in representative numbers to its population 
in the community.
    Today the RUC is a Protestant police force for one segment 
of the community. Change has to come, hopefully sooner rather 
than later. While Chairman Patten's mandate was part of a new 
beginning for policing in the north, one cannot in good 
conscience ignore the past history in the Royal Ulster 
Constabulary and its relationship with the minority nationalist 
community.
    We will be hearing later today from witnesses from the 
north whose lives and families have been tragically impacted by 
the acts of the RUC. Whether through possible collusion in the 
murder and the making of threats to those defense attorneys 
merely charged with securing fair play and justice for their 
clients, the past history of the RUC is sadly checkered. Theirs 
are not the only families touched by the RUC in one way or 
other. Thousands of others have been hurt as well, including 
police officers and their families. We all heard case after 
case in our Full Committee hearings this past April on the RUC, 
and we need not recount them here today.
    With that checkered past and the Patten Commission's first 
step to a new beginning to policing, we are calling on the 
British Government to move forward into the new and shared 
future of policing in the north. It can even do more. The 
Patten report leaves some serious gaps that will make the new 
future for policing in the north difficult: for example, not 
calling for weeding out the bad apples who have abused human 
rights in the past, and for new leadership at the top, these 
oversights will make the real reform hard to bring about.
    In addition, not banning police membership in sectarian 
associations whose very purpose goes counter to fair, impartial 
and responsible community policing, will also make real 
concrete change very difficult.
    We will be examining these and other proposals in our 
Committee, and I want to welcome Chairman Patten again and 
thank him for a very difficult but a well done job, along with 
his Commission. We look forward to hearing from you, 
Commissioner, and our other witnesses today.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Gilman appears in the 
appendix.]
    Mr. Smith. Mr. Patten, the floor is yours. We will have 
time for opening statements from all the Members later on. 
Commissioner Patten does have a very limited time here. We 
yield to him.

   STATEMENT OF THE RIGHT HONORABLE CHRIS PATTEN, CHAIRMAN, 
   INDEPENDENT COMMISSION ON POLICING FOR NORTHERN IRELAND; 
              ACCOMPANIED BY SENATOR MAURICE HAYES

    Mr. Patten. First of all, thank you very much for allowing 
Senator Hayes and me to attend this briefing and to spend at 
least some time with you this morning before I go back to what 
has just become my life as a Commissioner for the European 
Union.
    I am delighted that Maurice is able to join me. Maurice was 
one of the 7 other Members of the Commission. Maurice has had a 
record of public service in Northern Ireland which is second to 
none. He was the ombudsman and he is now, among other things, a 
Senator in Dublin. After me, he will say a few words.
    There were 7 other Members of the Commission. We had two 
Members from the United States, a distinguished police officer 
from Massachusetts and a distinguished police trainer and 
academic from New York, and they made a major contribution to 
our work, as did a number of police forces around the United 
States and indeed North America as a whole.
    I hope you will forgive me for beginning on a rather 
personal note in talking about a report which has been 
denounced as wicked--as meaning that any police officer who is 
ever killed in the future in Northern Ireland should be on my 
conscience--denounced this morning in a newspaper in London 
called the Daily Telegraph as bringing an end to the rule of 
law.
    This is the toughest job I have ever done, and I have done 
one or two which were not exactly pushovers. Tough for two 
reasons. The parties that were able to negotiate the Good 
Friday Agreement, providing a prospective peace and normality 
and democracy in Northern Ireland, were able to agree on the 
outlines of government. The one thing that they couldn't agree 
on was policing. So they called in 8 people from around the 
world to try to do the job for them.
    Second, why tough? To some extent, we found ourselves 
operating like a truth and reconciliation commission in 
circumstances where sometimes--and it is understandable there 
seemed to be more demand for truth and reconciliation than 
there was supply. We held 40 public meetings around Northern 
Ireland. People said nobody is going to go to a public meeting. 
Nobody goes to public meetings these days. Well, over 10,000 
people came to those public meetings. Over 1,000 people spoke 
at them.
    I can remember a meeting in a little village cinema in 
Kilkeel, a fishing village in the shadow of the Mournes. 
Protestant fishing fleet, Catholic farmers in the hinterland. 
We had a noisy and quite a good meeting. At the end of it, I 
made the sort of speech that we all can make terribly well as 
politicians about reconciliation and healing and hope. At the 
end of it, after I had finished, to my consternation I saw a 
little lady at the back of the cinema getting up to say 
something. I sat down rather nervously. She said, ``Well, Mr. 
Patten, I have heard what you say about reconciliation and I 
voted yes in the referendum campaign, but I hope you will 
realize how much more difficult that is for us here than it is 
for you, coming from London. That man there murdered my son,'' 
and it was true. On both sides of the community, that is the 
reality in Northern Ireland. Two stories, two sets of pain, two 
sets of anguish.
    We had an evening which began on the Garvaghy Road. I 
remember Robert Hamill's sister talking to us about his murder, 
and the meeting was chaired with considerable integrity and 
skill, difficult meeting by Rosemary Nelson. We then went down 
the road to Craigavon, and we had four police widows, one after 
another, telling us their stories, ending with Mrs. Graham 
whose husband had the back of his head shot off, a community 
policeman, in 1997. Mrs. Graham finished her remarks by saying, 
``You know, my husband wasn't a Catholic, but he didn't regard 
himself as a Protestant. He tried to behave like a Christian.'' 
I have to say that I went back from those two meetings that 
night and had the largest drink I have ever had in my life.
    Well, we did our best; and if anybody can do it better, 
welcome. We produced a report which is unanimous. But what were 
our terms of reference? To bring forward proposals to ensure 
that policing arrangements, including composition, recruitment, 
training, culture, ethos symbols are such that a new approach, 
Northern Ireland has a police service that can enjoy widespread 
support from and is seen as an integral part of the community 
as a whole.
    I would be interested in how anybody could produce 
recommendations which came closer to meeting those terms of 
reference. At the center of our argument is a simple 
proposition derided by British newspapers like the Daily 
Telegraph and one or two others, people who are more extreme in 
what they say about the RUC than any serving RUC officer would 
ever be.
    At the heart of our argument is that what has to happen in 
Northern Ireland is to take the politics out of policing and to 
take the police out of politics. To separate the police from 
what has been for decades the most contentious political 
argument, that is, the nature of the State itself. The whole 
basis of the Agreement does that.
    What does the Agreement--what does the Agreement assert? It 
says that in return for Nationalists accepting that political 
change can only come through democracy, through the ballot box, 
establishing the primary loyalty of Nationalists and 
Republicans to the democratic process, in return for that, 
Unionists will recognize that Nationalists have other loyalties 
and are not obliged to demonstrate their primary loyalty to the 
institutions of the State which they want to see changed 
through the democratic process.
    So when it came to establishing the Northern Ireland 
Assembly, to contemplating the establishment of the Northern 
Ireland Executive, no one has any difficulty agreeing that you 
can have an oath of office which doesn't have anything to do 
with loyalty to the State. Nobody argues about a logo, an 
emblem for the Northern Ireland Assembly, which has nothing to 
do with the contentious emblems of a contentious State, and yet 
people still insist that the police should be identified with 
the State in a way which is totally contrary to practice in 
liberal democracies. We don't regard in the rest of the United 
Kingdom the police as an arm of the State; we regard them as 
the upholders of the rule of law.
    I think it is intolerable that some people should still 
seek to fix the police at the center of that political 
argument, should still insist that the police should be a 
political football in Northern Ireland. Political footballs get 
kicked; actually, worse still in Northern Ireland, political 
footballs get shot and blown up.
    The best service we can do for all of the victims of 
violence in Northern Ireland is to end a situation in which 
those who should uphold the rule of law are directly related to 
the main contentious political argument. That is why we have 
said what we have said about name and emblems and so on.
    Our argument is that policing is about the protection of 
human rights. Now, I have been amazed that some people have 
contested that proposition. But it is clearly the case that the 
police are there to protect individual people's human rights, 
to exercise their own powers in a way which recognizes other 
people's human rights. Also we have to recognize that the 
police have human rights as well, which have to be protected.
    We have suggested a whole structure for ensuring that there 
is democratic accountability for policing in Northern Ireland, 
though it will obviously depend crucially on what happens to 
the institutions of government proposed in the Good Friday 
Agreement.We have put forward imaginative and wide-ranging 
proposals on their management, on training and on structure.
    Perhaps I can touch on two issues since you have mentioned 
them. One, the Special Branch; and two, public order policing.
    On the Special Branch, we have argued that while it is very 
important that Northern Ireland that the police service in 
Northern Ireland--has an adequate counterterrorist capacity, we 
don't think that the present size of the Special Branch is easy 
to justify. We don't think that the structure of the Special 
Branch makes sense. We think that the Special Branch should be 
treated in the same way as happens in London or most British 
police forces, or the Garda, for that matter, and that Special 
Branch functions and capacities are brigaded with those 
involved in the fight against crime.
    It is going to be particularly important because in a more 
peaceful, secure environment, which we will look forward to, I 
think Northern Ireland may well face bigger problems in the 
areas of organized crime and drug-running and so on.
    The other thing that we have proposed is that there should 
be a senior judicial figure as a commissioner responsible for 
the oversight of all covert policing--surveillance, intercepts, 
use of informants--and that there should be a complaints 
tribunal to which people can go if they feel that their civil 
liberties have been infringed by covert policing operations.
    That would put Northern Ireland ahead--though I think 
change will happen in Great Britain as well--ahead of the rest 
of the United Kingdom in ensuring that our position is entirely 
in line with the European Convention on Human Rights.
    On plastic baton rounds. Well, we have, as you know, 
proposed a more restrictive regime for the use of plastic baton 
rounds, but much as we would have liked to have done so, we 
have not been able to argue that plastic baton rounds should be 
completely done away with. Why? Because during our hearings, a 
police officer was killed with a blast bomb by loyalist thugs 
in policing a public order demonstration. Why? because police 
officers have to contend with blast bombs and petrol bombs when 
they are policing public order demonstrations.
    I totally accept, as I said, closer regulation of the use 
of plastic baton rounds, but when we said to some senior 
American police officers ``What would you do if people threw 
petrol bombs at you? ``They said we would use live rounds.'' I 
think it is important that there should be less lethal 
equipment available to policing before they have to do that.
    We have argued for more investment in technology of other 
sorts of public order policing. We have argued for more 
investment in water cannons. But, alas, much as I would liked 
to have done so, I did not feel that I could put my name to a 
report which completely removed plastic baton rounds, and 
particularly as we were writing within months of the police in 
the Netherlands, in Rotter Dam, when facing a football riot, 
using live rounds to cope with it.
    I think that there are two other issues that I would like 
to touch on this morning before concluding my remarks:
    The first. I think it is very important that the new police 
service in Northern Ireland should not be isolated, should not 
be cutoff from the rest of the world. We have said a good deal 
in our report about cooperation with the Garda Siochana and 
other police services. I have to say that I know that I am 
treading on controversial ground with distinguished Members of 
this Committee, but where foreign police services bring 
together Northern Ireland police officers and members of the 
Garda, I think they are doing the community in Northern Ireland 
a signal service.
    Composition. We have put forward a lot of detailed 
proposals which would ensure that within a decade, about a 
third of the police service in Northern Ireland was Catholic, 
Nationalist, Republican. I think that the rate of change, the 
rate of progress we have suggested, is pretty much at the 
margins of the possible.
    New York, for example, dealing with the problem of ethnic 
imbalance, the New York police moved from 12 percent ethnic 
minorities to 33 percent in 25 years. In comparison, the rate 
of progress which we are suggesting is pretty heroic, but I 
think it is achievable. What it is going to depend on is 
Catholic and Nationalist and Republican community leaders, and 
political leaders encouraging young men and women to become 
police officers.
    I think we have opened the door and it is very important 
that others encourage Catholics to go through that door. I hope 
that, as some Nationalists have reacted in the last few weeks 
in a welcome way in Northern Ireland, others will follow.
    Let me just say a word about implementation of the report. 
The British Government--and I don't speak for them, this has 
been an independent Commission--the British Government have 
said that they are going to consult on the report until 
November and then presumably begin the process of change.
    We have suggested that in order to oversee change, there 
should be an Oversight Commissioner who would visit Northern 
Ireland regularly to establish that the report was being 
implemented, and that if in some areas change was taking place 
slowly, there was an adequate justification for that. Clearly 
the political situation and the security situation in some 
areas will affect the pace of change, although overall I think 
regardless of the political and security situation, much of 
what we propose could take place.
    I wonder if I can ask Maurice to add a word.
    Senator Hayes. Thank you, Mr. Chairman, and thank you for 
the honor to speak to the Committee. I know some of the Members 
from before, and your interest in the subject.
    Chris was talking about the public meetings that we had. I 
remember the first one which was on Shankill Road in Belfast. 
After a very contentious meeting, there was an old lady who had 
not spoken all evening, and she came over to me and she said, 
``Son, you can only do your best.'' I thought she captured the 
sense of the difficulty of the task and the integrity of the 
people concerned. There was difficulty in finding a resolution 
between polar opposites, and the likelihood that no one would 
thank us for it anyway. She has been right, I think, on most 
scores.
    I took on this job out of admiration for those political 
leaders and their courage and vision and the historical 
compromise in the Good Friday Agreement, and I thought that no 
citizen could refuse to help under those circumstances. What we 
have done is deeply rooted in the Agreement. Our terms of 
reference were written for us in quite some detail by the 
framers of the Agreement. I think anybody applying a reasonable 
checklist will see that we have addressed all of them as 
thoroughly as we can. They did not equip us with subpoena 
powers. They did not equip us with an investigatory arm, and 
they did not equip us with a means of going over former cases 
or reviewing past events, and we could only assume that they 
wanted us to look forward.
    The Good Friday Agreement itself is a forward-looking 
document. It does tend to draw a line on the past. It does base 
the whole future of society on mutual respect, on equality of 
respect for the different traditions in Northern Ireland. That 
is why we have looked forward.
    We have informed ourselves of what went on in the past. We 
have read previous reports, but basically to ensure that the 
events which took place will not take place as far as can be 
prevented in the future.
    It seemed to us that the spirit of the Agreement was one of 
looking forward, and it would seem odd under those 
circumstances, where you are letting prisoners out of jail, to 
be proposing to put policemen in. We didn't give anybody 
amnesty. There is nobody who is immune to the law, to the 
prosecution of cases; and some of the cases you mentioned are 
being investigated and may well lead to prosecution and 
appearances in the court. It would have been wrong for us, I 
think, to have become involved in that.
    In addition to that, we have the position of the 
independent Police Ombudsman who we recommended should be able 
to review all records of officers and previous files.
    I think this is largely a managerial document. It imposes 
its controls in a managerial way. It may not be melodramatic 
enough for people who wanted to see blood on the floor, but I 
can assure you that a careful reading of that will show you 
that accountability is intended for the establishment and the 
maintenance of professional policing practices.
    There are a few themes running through the report. One is 
accountability; accountability at the political level, at the 
local level, accountability at the managerial level to ensure 
these professional standards.
    The second is transparency. People know their rights in 
relation to the police. The police know what they can't do and 
must do.
    The third is respect for human rights.
    The fourth is community representativeness and 
effectiveness and efficiency.
    The Holy Grail in all of this is the participation of young 
Catholic and Nationalist people in the police force.
    The quest everywhere in the world is for community 
policing, community policing with the consent of the community 
being policed. Policing in harmony with the community and 
cooperation with the community, by a police force which is 
itself representative of the community and which carries the 
respect of the community. It doesn't mean Catholic policemen to 
deal with Catholics and a Protestant police force to deal with 
Protestants, but a police force which commands the respect of 
the whole community. To do that, it has to be representative, 
and it was for that reason we had to take down the barriers 
which prevented young Catholics from adhering to the police, to 
get that percentage up from 8 percent to somewhere near the 
demographic balance.
    A test of our recommendations will be that young Catholic 
and young Protestant youth can stand up at youth clubs in their 
own district and say ``I am going to join the police'', without 
being jeered out of existence or being kicked out. That is the 
test. I think it is a challenge, and I think we have created 
structures on which others can build. It is a dynamic process. 
It is indeed, as you say, a beginning, but I believe we made an 
honest and a decent beginning.
    Mr. Smith. Thank you very much.
    Mr. Smith. I think you and Commissioner Patten make your 
points extraordinarily well, and because time is limited and I 
have a number of questions, I will reduce mine to one.
    I would ask you to help us to understand something. Senator 
Hayes, I think your point about being forward-looking is a very 
good one. But it also seems to me that a vetting process, 
especially in the Special Branch, but throughout the RUC, is 
not mutually exclusive of a forward-looking position; because 
if people who have committed egregious abuses in the past stay 
in the same jobs or work up the chain of command, your reform 
is only as good as your weakest link.
    This Committee has met with the three individuals who did 
the Truth and Reconciliation Commission in El Salvador. We have 
looked at other efforts to try to look forward, and also at the 
present and past. Perhaps jail is not what everyone needs to 
look at for those offending police, but at least they need to 
be taken out of the positions where they can continue to do 
harm. I remember that it was said to those who committed 
atrocities in El Salvador: You can never run for office, you 
are finished. In terms of public performance, you are persona 
non grata. If those people are still in those positions 
undermining investigations, that could seriously erode reform 
as you go forward.
    Senator Hayes. They will not necessarily be in those 
positions. One of the things that we have recommended is quite 
a serious program of training and retraining for everybody in 
the organization, one made necessary because of the 
incorporation of the European Convention on Human Rights into 
British domestic law. That has enormous impacts, and all of the 
police have to be trained for that.
    Second, it is a police force which has been geared, for 
reasons which we all know, to the conflict situation for 25 
years, and they are now having to move into a quite different 
style and culture of policing with the community in a peaceful 
society, and that requires retraining.
    There will also be repostings. One of the things that we 
have suggested is tenure; that nobody should stay in a place 
like the Special Branch or the special units for more than 5 
years without going back to community policing.
    The proportion of people who are in community policing at 
the moment is actually quite small. We are proposing that the 
center be community policing. That means people will be 
relocated. There is another important change actually in that, 
up to the present, policemen in Britain and Ireland could only 
be dismissed for gross misconduct or for crime, not for 
inefficiency, and we are asking every police officer to 
subscribe to a declaration of respect for human rights and 
human dignity and service to the community. That is what they 
are being judged against. It can be a constabulary offense not 
to be adaptable to change, and we think that in that way people 
will be moved around. People will be trained and some people 
might decide that this is not the sort of policing for which 
they joined.
    Mr. Smith. Would you support the police board or the 
ombudsman establishing a vetting process as the next step? 
Retraining is one thing, but there is this issue of justice and 
people being removed who have committed abuse or beatings in 
Castlereagh or anywhere else.
    Senator Hayes. I know the problem that you raise, and it is 
a very difficult one to deal with, and I welcome any practical 
steps that can do it, but there is a difficulty between 
establishing a vetting process which is clear on the one hand, 
and a witch hunt on the other. The situation is very clear at 
the moment, and I would not want to destabilize it actually by 
increasing the uncertainty for the good and honorable 
policemen, of whom there are very many.
    Mr. Patten. I am strongly in favor of vigorous management, 
making sure that those who are in the police service are living 
up to the oath that they would have taken. I am very much 
against witch hunts.
    The other thing that I would add is that under our 
proposals for changing composition, for recruitment, for 
downsizing, within 10 years Northern Ireland would have not 
only about a third of a force which is Catholic and Nationalist 
and Republican, but would also have a 50 percent completely new 
force. Half the police service in Northern Ireland would be 
new, and I think in that sort of turnover in the police service 
in composition, it should be possible to deal with any bad 
apples.
    Mr. Smith. I can't let the one comment go by. I am opposed 
to a witch hunt as well, as is everybody; but every police 
force does have an internal affairs department and is 
continually vetting its own.
    Mr. Patten. Absolutely. We are very strong about internal 
accountability and relating strong management to training and 
retraining. I don't think we would disagree with anything that 
is done in a decent police service in North America.
    Mr. Smith. Mr. Gilman.
    Mr. Gilman. Thank you.
    Chairman Patten, we have seen in the past, British 
commissions have come and gone and many have left their reports 
on the shelf to gather dust, and we hope certainly that is not 
going to be the result here.
    Do you believe that the British Government is fully 
committed to implementing your report?
    Mr. Patten. A former British Prime Minister described royal 
commissions as taking minutes and wasting years, and I wouldn't 
like to think that Maurice and I and 6 of our colleagues had 
wasted our year, but I can't speak for the British Government, 
though I used to be able to until the electorate took another 
view.
    I think the only person who can answer the question on 
implementation is Mo, the Secretary of State. But I think all 
of us have been grateful for the positive things which the 
British Government have said about our report.
    I should add, I have been pleased about the positive things 
that police services around the world have said about our 
report, serving police officers here in North America, serving 
police officers in the rest of the United Kingdom, serving 
police officers in the Republic.
    What Mo Mowlam has said, is that she is going to give 
people in Northern Ireland until November to comment on the 
report, and then she is going to announce what she is going to 
carry forward. Obviously I hope that nobody starts cherry-
picking in this document, because I think it hangs together as 
a whole.
    Some people have said that they are going to put forward 
their own proposals. The official Unionists who have opposed 
our report say that they are going to put forward their 
proposals. I hope they are able, if they do, to put forward 
proposals better than ours in ensuring that policing 
arrangements are such that Northern Ireland has a police 
service which can enjoy widespread support and an integral part 
of the community as a whole.
    Mr. Gilman. I have one more question. Chief Constable 
Flanagan indicated that membership in loyalist orders like the 
Orange Orders are totally inconsistent with building broad 
community support. In his statement he made before the House of 
Commons in March of this past year, Mr. Flanagan, in responding 
to a query of that nature and memberships, said, ``I said it is 
more a matter of perception. But in giving my answer, Chairman, 
I think I recognize the importance of perception and I stress 
my personal preference that my offices should not be members of 
the organizations referred to,'' talking about these kinds of 
orders.
    Yet the Patten Commission report didn't recommend any ban 
on membership by police officers in those kinds of orders. Has 
the report therefore left a legacy in place that could erode 
the new police service?
    Mr. Patten. No. I note what Sir Ronnie says about 
preferring that people weren't members, not just of the Loyal 
Orders, but of other similar institutions, even though they may 
have a different religious background. I think that we are 
looking at organizations including Masons, Loyal Orders, the 
Ancient Order of Hibernians, and others.
    I think you have to draw a distinction if you believe in 
civil liberties and freedoms. I think you have to draw a 
distinction between what people may think and the way that they 
act. I think what we can expect from police officers is 
impartiality.
    Now, none of our investigations suggested that there were 
many members of the Loyal Orders or the Ancient Order of 
Hibernians in the police service in Northern Ireland, but we 
concluded that if you wanted a police service that reflected 
the whole community, it wouldn't be right, and it would 
certainly infringe against most of my civil libertarian 
instincts, to deny anybody the right to be a member of any of 
those orders.
    What we have said is that membership of any institution 
should be declared and available to the police service and to 
the police ombudsman. Beyond that, I wouldn't wish to go, 
although I note what Sir Ronnie and other police chiefs have 
said about their preference. But there is a difference between 
asserting that preference and actually taking on a fairly 
fundamental civil liberties issues.
    Mr. Gilman. Thank you, Mr. Chairman.
    Mr. Smith. Mr. Gejdenson.
    Mr. Gejdenson. It seems that the British and the American 
Governments play a pretty strong role universally to press 
forward in human rights and the development of democratic and 
civil societies. At an earlier meeting this morning, we talked 
about trying to do that in the former Soviet Union. I wonder 
what you think that the British Government and the U.S. 
Government could do to accelerate the process in Northern 
Ireland. Senator Mitchell is over there now and we are hopeful 
that he will move the process forward.
    It seems that in areas where we have very little historical 
bond, we are sometimes able to move things more rapidly than 
here in Northern Ireland. There are places that the British 
Government has been immensely helpful in resolving disputes, 
ethnic religious disputes. Here, at our doorstep, in a sense, 
we seem to be kind of floundering at this point.
    Mr. Patten. I place on record our gratitude to not only the 
American members of our Commission for the contribution they 
made, but the contribution made by police services right across 
the United States to our deliberations. Similarly, anybody who 
is as passionately concerned about the future of Northern 
Ireland as I am has to feel a huge debt of gratitude to Senator 
Mitchell, who has done an extraordinary job.
    What must be very frustrating for him is that I guess he 
felt, not unreasonably on Good Friday last year, that he had 
done the difficult bit, and that implementing what had been 
agreed should be fairly straightforward. He is now back trying 
to persuade local political leaders to implement it, with it 
still being the case that all of the opinion polls demonstrate 
substantial majority support for making a reality of the 
agreement. After all, what is the alternative?
    I think you've been very helpful and I think we are getting 
to the stage where the future of stability and peace and 
prosperity in Northern Ireland is going to be self-evident and 
very plainly in the hands of political leaders in Northern 
Ireland, and I hope they won't let down those they represent 
who I think want, with a burning passion, this to succeed.
    In relation to the policing issue, I think it is very 
similar. It has been very interesting that, for example, the 
press in Northern Ireland have been much more positive about 
our report than parts of the press in the rest of the country.
    Mr. Smith. Mr. King.
    Mr. Patten. With great apologies, I am going to have to 
move on in a minute because I have got White House and other 
engagements. But if Maurice can stay--no, you have to leave, 
too. Perhaps a couple more questions.
    Mr. Smith. Mr. King.
    Mr. King. Mr. Patten, I would like to welcome you here 
today and commend you on the outstanding job that you have 
done. I also would like to welcome back Anthony Cary. It seems 
like only yesterday that you left.
    I identify myself also with the remarks of Chairman Smith 
on the vetting issue and Chairman Gilman on the political will 
to implement the full Agreement, because I believe it would 
have to be implemented in full to have full significance.
    I would like to ask you why, in view of the fact that there 
have been widespread allegations and evidence about RUC 
complicity or threats being made against Pat Finucane or 
Rosemary Nelson, why there is no reference made to either of 
those cases in your report?
    Mr. Patten. There is no reference for the simple reason 
that we followed our terms of reference. We weren't set up as a 
judicial inquiry with the powers that an inquiry would have. 
For example, the inquiry that is now looking into the deaths in 
Derry. We weren't set up with those powers. But nevertheless, 
we sought to propose policing arrangements for the future, 
which would ensure that the sort of allegations that have been 
made about what happened in the past could not be true in the 
future--which would make it very difficult to do anything in 
the future such as is alleged to have taken place in the past. 
Because of legal issues I have to be careful how I put these 
things.
    We thought that in order to put forward adequate 
arrangements for the future, we had to read the reports of what 
had happened in the past. We asked for and were given access to 
all those reports--Stalker, Sampson, Stevens--and we saw the 
authors of those reports.
    What we say in our report reflects our study of those 
documents. As you know, Stevens is still going. As you know, 
there are ongoing at least one ongoing court case and 
conceivably others. But I want to assure you that what we have 
said about issues from covert policing to the future of the 
Special Branch and to the general issue of accountability and 
to the role of the policing board reflects what we saw and 
read.
    Mr. Neal. Commissioner Patten we can't get past the fact 
that Senator Mitchell is back for the review because the 
Unionists have said no to implementation of the Good Friday 
Agreement. Tomorrow the Grand Orange Order in Belfast is going 
to meet to oppose what it is that you have authored. You have 
received high marks throughout your career, and the study that 
you have undertaken here is a good start, and I think we would 
all acknowledge that.
    But having said that, we have all shared one common 
experience, and that is that we have all seen architectural 
renderings that look marvelous and then we have seen the 
building, and oftentimes there is a difference.
    Your report to be implemented is also going to have to go 
through stages of parliamentary action before it is fully 
implemented. How are we to be assured that this issue which 
cuts to the core of many of the differences in the North of 
Ireland will ever be implemented in the manner in which you 
have recommended?
    Mr. Patten. The main critics of our report in the media, 
and I suspect in politics as well, are people who don't really 
like the Agreement at all, are people who view the attempt to 
accommodate decent Nationalist aspirations as somehow a 
treachery. It is easy, isn't it, to criticize every attempt to 
show generosity of spirit, to argue for moderation; easy to 
criticize every such attempt as appeasement, as a surrender of 
the rule of law.
    I repeat the point, what do these critics suggest should 
replace the Good Friday Agreement? What do they suggest should 
be done to ensure that police officers get the support right 
across the community which they deserve.
    The answers to Northern Ireland's problems isn't to turn 
the clock back. The answer to Northern Ireland's problems isn't 
to remember every old feud and humiliation and tragedy. The 
answer is to try to move forward.
    Now, I think our policing report is absolutely fundamental 
to moving forward. I hope that the government will conclude 
that after listening to views. I hope that the House of Commons 
will conclude that after debating our recommendations. I hope 
that the people of Northern Ireland will conclude that as well.
    I don't think this report is going to look at all bad 
against the great sweep of events in Northern Ireland, but that 
is less important than whether it really does shape a policing 
service which the people of Northern Ireland deserve. 
Everybody, I hope, should regard this report as an opportunity 
for a new beginning, for a police service which everybody can 
sign up to, everybody can join, everybody can give their full-
hearted consent to.
    Maurice, do you want to add anything?
    Senator Hayes. One of the most important recommendations we 
made is for an implementation supervisor, and the idea of this 
is for a figure of international standing and repute who could 
hold all parties to account, including governments and 
treasuries responsible for providing the money, and that is a 
key and integral part of the thing, to prevent the kind of 
outcome that Congressman Neal was referring to.
    Mr. Patten. But after his heroic efforts, I strongly 
suspect that we can't anticipate Senator Mitchell volunteering 
for the job.
    Mr. Smith. Mr. Crowley.
    Mr. Crowley. First, Mr. Patten, and Senator Hayes, thank 
you for your work on this long-awaited document. We had a 
recent meeting with members of the RUC--and this is just a 
quick statement. One of the questions I had was why is it that 
you cannot change the color of the uniform from green to blue. 
The answer, we were told by the RUC, was that green is an Irish 
color and we like that color as opposed to moving it from a 
military to a policing color.
    I make that statement because of a concern of something so 
simple to do compared to what you are proposing, some 175 
specific recommendations of change that will radically change 
the police department if it is imposed. My question is, why 
didn't we just start all over? Instead of 175 complex changes? 
Why not just throw the whole ball of wax out and start all 
over?
    Mr. Patten. I don't know many people who seriously think in 
Northern Ireland that we could close down the police service 
tomorrow and somehow find a new one overnight. I just don't 
think that was ever a realistic option. Of course, one or two 
people argued it to us and we considered it; but I think that 
was as unrealistic an option as doing nothing at all, as 
finding even the uniform too difficult to contemplate.
    I think we had to find proposals which were rooted in the 
real world, and I think our proposals are. I think we offer a 
transformed policing service in Northern Ireland, as 
transformed as policing services have been in some other 
communities, not the least in North America. I very much hope 
that when you visit Northern Ireland in the future, you will be 
able to see those police officers walking the streets 
everywhere, dealing with crime and difficulties in every 
neighborhood, and being welcomed in every neighborhood as well.
    Mr. Smith. Thank you. We would like to submit some written 
questions. Obviously some people here didn't get a chance to 
ask questions, and if you would be so kind to respond, it would 
help us.
    Mr. Patten. Thank you very much.
    Mr. Smith. I would like to present the second panel, 
beginning with Michael Posner, Executive Director of the 
Lawyers Committee for Human Rights, since its inception in 
1978. Mr. Posner who served on the board for Amnesty 
International, America's Watch, and the International League 
for Human Rights, has been a visiting lecturer at Yale law 
school and Columbia University law school and has provided 
testimony to this Subcommittee numerous times, and I can say 
without any fear of anyone contradicting me, this Committee 
greatly values your contributions.
    Michael Finucane is an attorney and the eldest son of 
Patrick Finucane, a Belfast solicitor who was murdered in front 
of his family in 1989. In his work for the Pat Finucane Center, 
Michael has actively sought justice and full disclosure of the 
facts behind that heinous crime. We appreciated your previous 
testimony before the Committee and applaud you for your courage 
in the face of incredible hardship and sorrow and adversity in 
standing up for human rights in Northern Ireland.
    Mr. Smith. Michael, if you can begin.

   STATEMENTS OF MICHAEL POSNER, EXECUTIVE DIRECTOR, LAWYERS 
                   COMMITTEE FOR HUMAN RIGHTS

    Mr. Posner. First of all, I want to thank you, Chairman 
Smith, for your longstanding interest and active involvement in 
these issues, and thank this Committee for being a forum for 
these discussions now and hopefully in the future.
    First, I should say, we also share--and I have a written 
statement which I would like to make part of the record, but in 
it we say that the Lawyers Committee also appreciates the 
stellar work of Chairman Patten and the Commission on Policing. 
They took on an enormously difficult task and did it with great 
care and attention, and I think their report reflects that.
    We particularly appreciate the focus that the report places 
on human rights and accountability, and those are themes that 
run throughout the report. I think they do set in some respects 
a framework for what they call a new beginning, but certainly a 
moving forward in a very problematic area.
    At the same time, we also were quite disappointed, as many 
of you have expressed, that the Commission in its report failed 
to grapple directly with the issue of impunity and of past 
violations, and I think in some respects the answer that Mr. 
Patten just gave with respect to that is in a sense presenting 
a paradigm that is not necessarily the only one. I don't think 
anybody here, or certainly we didn't expect that the Commission 
on Policing would undertake to investigate all of the past 
crimes of the last 30 years.
    What we had hoped and what I think all of us now face is 
the prospect of dealing with what has really become a cycle of 
impunity and for dealing with the reality that the RUC is not 
at a new beginning. It has 11,000 or 12,000 people on active 
service, many of whom have been with the force for a long time, 
and too many of whom have been responsible for grave violations 
of human rights. The question is, what do you get to get some 
change.
    Our view has been and continues to be that there has to be 
a targeted focus on specific egregious cases. I am here this 
morning in part to again reiterate our concerns about two of 
those cases, the Patrick Finucane and Rosemary Nelson cases, 
and then I just want to say a couple of words in closing.
    I am going to defer to Michael on the Patrick Finucane 
case, except to say that for 10 years now we have followed and 
been very actively involved in that case. We are not satisfied 
or convinced that a third Stevens inquiry or participation is 
the way to address that. We would here again call and urge you 
to call for an independent inquiry. There are too many 
different strands and sensitivities and there is a need to get 
at the truth, both in terms of who ordered the killing, who 
knew about it, and who covered it up.
    With respect to the Rosemary Nelson case, you all had an 
opportunity to see and hear her last year, almost a year to the 
day, and she came and testified that basically she was at risk 
and that she was receiving, on a regular basis, threats; 
threats delivered through her clients by members of the police.
    Here we sit a year later, and we ask ourselves what is 
being done to address not only her horrible murder last March, 
but also what is being done to investigate the climate and the 
official tolerance of the kind of threats that in some way set 
an environment in which the horrible murder happened.
    We have been troubled by the way that investigation has 
proceeded. We are now 6 months into the investigation of the 
Rosemary Nelson murder. A British policeman named Colin Port 
has been assigned as the officer in charge. He reports directly 
to Ronnie Flanagan, the chief constable of the RUC. His people 
are in Lurgan, an RUC office using RUC computers with RUC 
investigators part of that investigation.
    We have--I have as part of the written submission that I 
have made, and I hope that you will make it part of the record, 
an exchange of correspondence with Mo Mowlam about the 
structure of that investigation, again in our view critically 
flawed. There needs to be a thoroughly independent 
investigation, with no participation of the RUC except where 
the person in charge deems it absolutely essential and 
indispensable.
    We feel that there are people who may have information 
about the Rosemary Nelson murder who are unwilling or reluctant 
to come forward because their perception is that this is just 
another RUC investigation that will go nowhere.
    Two last comments. One thing in a broader sense that 
Maurice Hayes said that I agree with, a number of the 
recommendations in the Patten Commission report are managerial 
in tone and I think are very good recommendations with respect 
to training and structure. My colleagues on the next panel will 
deal with some of those in detail.
    I would just make one general observation, which is that 
any manager has got to be thinking, once a plan, once a broad 
framework is in place, what is the operational plan to 
implement it. Timing, dollars or pounds, what is it going to 
take to do it practically? That is a problem here.
    Second, there has to be a change in institutional culture, 
and I would say as a first element of that, coming back to the 
Nelson and the Finucane cases, there has to be a suggestion 
that the way things are in the future is fundamentally 
different than the way that they have been in the past. This 
report from the Patten Commission doesn't necessarily lead us 
there, and I think it is incumbent upon all of us to press the 
British Government and others to make sure that message is 
sent.
    Finally, there needs to be a leadership of any institution 
internally that make those things happen. I think all of us 
have to ask ourselves, and British authorities have to ask 
themselves, is the current leadership of the RUC prepared 
fundamentally to take on the enormous task of making this plan, 
this framework of the Patten Commission operational? I question 
that. It seems to me that all of us have to be asking those 
questions.
    Externally there are a number of things not in place, or at 
least proposed in the report, that aren't in place. An 
ombudsman, it is a good suggestion and there is no ombudsman.
    The operational capacity, this transitional Oversight 
Commissioner, it has to be someone strong, with a lot of 
authority. A police board.
    There are a number of--this is a blueprint with a lot of 
interesting ideas. I think we ought to push it to the limit. We 
ought to view it as a package, but we ought to view it as the 
beginning of the beginning and recognize now that the tough 
work of implementation begins, and I am for one not convinced 
that the British Government is going to operationalize this in 
a way that is going to really create a new beginning in terms 
of human rights.
    Mr. Smith. Thank you. Those submissions will be made a part 
of the record, without objection.
    [The prepared statement of Mr. Posner appears in the 
appendix.]
    Mr. Smith. Mr. Finucane.

 STATEMENT OF MICHAEL FINUCANE, SON OF PATRICK FINUCANE, SLAIN 
                        DEFENSE ATTORNEY

    Mr. Finucane. Thank you, Mr. Chairman. I would like to 
preface my remarks by offering my sincere thanks on behalf of 
myself and my family for the invitation to speak today.
    Mr. Chairman, Members of the Committee, my fellow speakers, 
ladies and gentlemen, I am Michael Finucane, the eldest son of 
Pat Finucane, the defense lawyer murdered in 1989. I testified 
before this Committee 2 years ago and I openly accused the 
British Government of ordering and arranging the murder of my 
father. I pointed to the powerful motivation of the British 
Government in silencing the embarrassing revelations of my 
father's human rights work. I listed the names of prominent 
international organizations that had up until then supported my 
family's call for a full, independent inquiry into his murder.
    Upon hearing the accusations I had to make and the proof I 
had to offer, this Committee immediately pledged its support to 
my family's call for an independent inquiry. Many others have 
done the same since, including the Irish Government, the United 
Nations Special Rapporteur, Param Cumaraswamy, who has also 
been a witness before this Committee, the Law Society of 
Ireland, the Law Society of Northern Ireland, the Bar Council 
of Ireland, Northern Ireland, and England and Wales.
    On February 12, this year, a petition was published in 
several national newspapers marking the 10th anniversary of my 
Father's death. It was signed by over 1,300 lawyers worldwide, 
clearly showing to the British Government an unprecedented 
level of international support for an independent inquiry into 
his murder.
    On the same day, my family and I presented a confidential 
report compiled by the London-based NGO British Irish Rights 
Watch to the Secretary of State for Northern Ireland, Mo 
Mowlam. This report was based in part on classified information 
from British intelligence files. It clearly showed that 
military intelligence had clear advance knowledge of the plot 
to assassinate my father and that their agent, Brian Nelson, 
aided the assassins without hindrance.
    I would very much like to be able to tell this Committee 
that all of these efforts and pledges of support have led to 
the establishment of an independent public inquiry. They have 
not. In the last 12 months, the British Government has ignored 
not only the calls of this Committee, but has also dismissed a 
second report of the United Nations Special Rapporteur and has 
refused to respond to the report of British Irish Rights Watch.
    Added to this are the events that have unfolded in Northern 
Ireland in the last number of months, events disclosing highly 
sinister practices on the part of the RUC and the Director of 
Public Prosecutions for Northern Ireland in relation to the 
prosecution of those responsible for murdering my father.
    In March 1999, the chief constable of the RUC, Ronnie 
Flanagan, recalled John Stevens to Northern Ireland. Mr. 
Stevens was the English police officer who first investigated 
collusion between the RUC and loyalist paramilitaries, and he 
had been instructed by the chief constable to reopen my 
father's murder investigation.
    The chief constable is on record as having stated that 
previous investigations by Mr. Stevens had completely 
exonerated the RUC from any illegal involvement in the murder 
of my father. Mr. Stevens, however, began his duties by opening 
an initial press conference with the statement that he had 
never before investigated the case of Patrick Finucane, nor had 
he been asked to do so.
    What, then, is the truth of this matter? Is the chief 
constable of the RUC lying about the investigation into my 
father's murder? Is he aware of wrongdoing or illegality on the 
part of his officers and has he sought to cover it up?
    On June 23rd this year, Mr. Stevens charged a man named 
William Alfred Stobie with my father's murder. The first thing 
that Stobie said when formally charged was ``not guilty of the 
charge that you have put to me tonight. At the time I was a 
police informer for RUC-Special Branch. On the night of the 
death of Patrick Finucane, I informed Special Branch on two 
occasions by telephone of a person who was to be shot. I did 
not know at the time of the person who was to be shot.'' .
    When Stobie first appeared in court, his lawyer stated that 
his client was a paid Crown agent from 1987 until 1990 and that 
he gave the RUC information on two occasions before my father's 
murder which was not acted upon. In addition, Stobie's lawyer 
claimed that ``as a result of this information at another trial 
involving William Stobie on firearms charges in 1991, the Crown 
offered no evidence and a finding of not guilty was entered on 
both counts. My instructions are that the bulk of the evidence 
here today has been known to the authorities for almost 10 
years.'' .
    Mr. Stobie has appeared before the courts on a number of 
occasions since then. More information has come to light 
showing that what his lawyer said in court is absolutely true.
    In 1990, Mr. Stobie was charged with the possession of 
firearms found in his home. I can say from my personal legal 
experience that the evidence against him would have convicted 
any other person and that this was the logical outcome here. 
However, in this case, the charges were dropped because Stobie 
threatened to expose his role as an RUC agent. The chief 
prosecutor in this case, Jeffrey Foote, QC, is now a judge 
serving on the county court bench in Northern Ireland.
    It has also emerged that Mr. Stobie confessed to his role 
in my father's murder while in police custody in 1990 and even 
the very existence of this confession was denied as recently as 
the 3rd of August this year. At a court hearing on that day, it 
was stated that the DPP had decided not to prosecute Stobie for 
my father's murder due to a lack of evidence. It was claimed 
that the evidence against him consisted solely of notes taken 
by a journalist during an interview in 1990 which until now had 
not been stated in evidential form capable of being used in a 
criminal trial. This decision not to prosecute Mr. Stobie was 
specifically stated to have been taken by the DPP's office at 
the highest level. This decision was made on the 16th of 
January, 1991, 7 days before the firearms charges were dropped 
against him.
    The only reason my family are aware that Mr. Stobie made a 
confession is because it emerged at a later court hearing this 
year. The RUC are currently seeking to compel another 
journalist who interviewed Mr. Stobie in 1990 to hand over his 
notes of interview. Mr. Ed Moloney, the journalist concerned, 
has refused to do so and has cited journalistic privilege. It 
was during a court hearing on this issue that an RUC chief 
inspector stated William Stobie had admitted supplying the 
weapons in my father's murder and recovering them after the 
killing. Stobie admitted this in police custody in 1990. He 
also admitted that he was a Special Branch agent.
    All of these matters raise important questions for the 
various institutions and individuals concerned. Why was William 
Stobie not charged in 1990 when a confession was on record and 
in the hands of the RUC? Why did it take the recall of John 
Stevens, 9 years later, before charges were proffered? 
Furthermore, why did the DPP decide at the highest level not to 
prosecute Stobie, given the existence of a confession? Why was 
the very existence of this confession denied in court on August 
3 this year?
    Is the Office of the Director of Public Prosecutions 
complicity in concealing wrongdoing by members of the RUC as 
the chief constable Ronnie Flanagan has done? RUC officers have 
engaged in a persistent campaign of hostility, intimidation, 
and abuse of defense lawyers in Northern Ireland. They have 
uttered death threats against many lawyers, two of whom have 
been assassinated. None have been brought to account for their 
actions.
    This is the glaring omission in the report of the Patten 
Commission and the fundamental error. While the report contains 
many welcomed proposals for a human rights-based police service 
with primary responsibility for the whole community, it shies 
away from key issues that quite simply must be addressed if the 
new police service as a whole is to succeed.
    The Commission said they had no mandate to do so. I 
respectfully disagree. In the terms of reference of the 
Independent Commission on Policing for Northern Ireland, it is 
contained that the Commission should focus on policing issues 
but if it identifies other aspects of the criminal justice 
system relevant to its work on policing, including the role of 
the police in prosecution, then it should draw the attention of 
the government to those matters.
    Surely the Commission does not suggest that the persistent 
and credible concerns concerning RUC threats and harassment of 
defense lawyers is not relevant to its work. The RUC has 
labeled lawyers as the enemy and has engaged in a systematic 
campaign to undermine their role. They have actively pursued a 
course that has put the lives of all defense lawyers at risk 
and they have colluded with those who are prepared to murder 
them. At the very least, any new service needs to be retrained 
in its approach toward dealing with defense lawyers who are, 
after all, simply carrying out the function which it is their 
duty to do. The lawyer who represents William Stobie, Joe Rice, 
stated to the Lawyers Committee for Human Rights in 1992 that 
if a lawyer rocks the boat too much, then like Patrick 
Finucane, he or she will be in trouble.
    Threats have continually been made for many years by RUC 
officers against defense lawyers. As far back as 1984, a client 
of my father's was told, ``Finucane would be like you, he'd be 
f--------' blown away.''
    In 1988, Amnesty International recorded a statement from a 
man who been badly beaten while in RUC custody and who was 
represented by my father. He said that the RUC told him, it 
would be better if he, Patrick Finucane, were dead rather than 
defending the likes of you.
    Five weeks before my father was murdered, another man was 
told by an RUC officer that his solicitor was working for the 
IRA and would meet his end also. He asked me to give Mr. 
Finucane a message from him. He told me to tell him that he is 
a thug in a suit, a person trying to let on that he is doing 
his job, and that he, like every other fenian bastard, would 
meet his end.
    These threats had continued unabated for so many years that 
many lawyers, my father included, came to view them as an 
occupational hazard. Now, when an RUC officer tells a detained 
person that his lawyer will be shot, that lawyer must regard 
the threat as real. Lawyers are also members of the community 
that the Patten report seeks to serve, and as such they are 
entitled to protection from such individuals. The reality that 
lawyers must live with is that, notwithstanding the fact that 
their lives are at risk from paramilitaries, they are also at 
risk from the RUC.
    These issues are crucial. They are crucial because two very 
courageous lawyers have paid with their lives. Despite many 
submissions that specifically highlighted the existence of 
collusion in the murders of both my father and Rosemary Nelson, 
they are not addressed in any way in the report of the Patten 
Commission. The report of the Patten Commission makes specific 
mention, time and again, of RUC officers who were killed during 
their period of service and how their families should now be 
accommodated. But it does not recommend anything for the 
benefit of those who have been murdered either by the RUC or 
with the assistance and collusion of the RUC. Why is this? Does 
the report seek to distinguish between classes of victims?
    The report also ignores the fact that the very officers who 
engaged in activities of intimidation and abuse are still 
serving with the RUC. Furthermore, the report proposes no 
mechanism for ridding the new police service of these officers. 
It does not even recommend that they should account for their 
years of serial abuse of human rights. I can categorically 
state that given the Patten report's absence of recommendations 
in this area, given the continued absence of effective 
government proposals, and given a complete lack of any 
commitment to stringent measures to deal with this problem, 
defense lawyers in Northern Ireland are still in trouble, the 
worst kind of trouble, their very lives are on the line.
    In this very chamber 1 year ago, I sat in the audience and 
listened to a most remarkable lady, Rosemary Nelson, utter the 
now haunting words ``No lawyer can forget what happened to Pat 
Finucane.'' Rosemary said she looked forward to a day when her 
role as a professional lawyer would be respected, and where she 
could carry out her duties without hindrance or intimidation. 
She did not live to see that day.
    On March 15 this year, Rosemary Nelson was murdered. She 
had spoken publicly of the threats to her life that she had 
been forced to learn to cope with, hoping that by publicly 
highlighting the regime targeted against her, she could somehow 
protect herself and her family from harm. In identical 
circumstances to those of my father, she became a target, and 
consequently a victim.
    To date, no one has been charged with her murder. The 
political circus that took place over simply trying to ensure 
that independent police personnel would investigate her murder 
speaks volumes about how little the British Government values 
the lives of people who are murdered for simply doing their 
job.
    Is this to be always the way that the State and the police 
in Northern Ireland, by any name, deal with lawyers who ask 
uncomfortable questions, who take on contentious cases, who 
seek to uphold the rights of all people without fear or favor?
    The RUC as a police force--and I use the word ``force'' 
very deliberately--bears total responsibility for the sins of 
its past. Whether by act or omission, each and every member of 
the force must face up to the fact that they bear some 
responsibility for what has happened. The victims of atrocities 
cannot deny nor forget what happened. Indeed, the generosity of 
spirit of many fortunate victims of RUC collusion puts those 
who are responsible to shame. These people are prepared to work 
hard for the future of Northern Ireland, both for their own 
sake and the sake of future generations. But they should not be 
asked to simply swallow their pain, they should not be asked to 
erase the memory of those they have lost, and they should not 
be asked to watch as those who have abused and killed and 
conspired to kill them and their loved ones are ushered into a 
new police service without being asked to render so much as an 
apology.
    If we are truly to see a new police service for all of the 
community in Northern Ireland, then there must be courage 
underlying our convictions. We must be able to turn to those 
who are not capable of participating in a new police service 
based on tolerance and respect for others, and tell them that 
they have no place.
    I do not deny that this is a difficult task. But in doing 
what must be done, we are acknowledging that wrongdoing of the 
most heinous kind has taken place and that there are some acts 
which cannot go unpunished. The dead have paid the ultimate 
price. I believe it is right and proper that those responsible 
should not escape without payment of any kind.
    I thank you very much.
    Mr. Smith. Thank you very much, Mr. Finucane, for your 
excellent testimony. It was very comprehensive, very 
persuasive.
    [The prepared statement of Mr. Finucane appears in the 
appendix.]
    Mr. Smith. Mr. Gilman has to leave, but did want to ask a 
question or two.
    Mr. Gilman. I want to thank Mr. Posner and Mr. Finucane for 
coming before our Committee and giving their valuable 
testimony.
    Mr. Posner, what one thing can be done about the British 
inquiry into Rosemary Nelson's death truly independent so we 
all can have some confidence in its conclusion?
    Mr. Posner. I think the most important thing is to set up 
an independent inquiry into the murder. Right now, you have a 
hybrid with a British police officer, Colin Port, directing a 
mix of British and Northern Ireland RUC officials, and 
basically it taints the process.
    Mr. Gilman. Has a request of that nature been made?
    Mr. Posner. Repeatedly.
    Mr. Gilman. To whom?
    Mr. Posner. Attached to my testimony are a couple of 
letters that we have sent to Mo Mowlam. We have met with her.
    Mr. Gilman. Has she responded to that kind of request?
    Mr. Posner. The responses have been thus far that they are 
moving in the direction of trying to create safeguards within 
the current process, but we have not had a satisfactory 
response.
    Mr. Gilman. Mr. Finucane, the weapon used to kill your 
father was a British army revolver, I believe, and which 
initially was contended was stolen. In light of recent 
revelations of collusion with the security services, do you 
still believe or have any new evidence that that weapon was in 
fact stolen?
    Mr. Finucane. Absolutely. The individual who stole the 
weapon from police barracks was prosecuted for the theft and 
sentenced to I think a term of 2 years imprisonment.
    Mr. Gilman. Did he admit the use of that weapon and that he 
stole the weapon?
    Mr. Finucane. No. The individual who stole the weapon was 
serving in the Ulster Defense Regiment, a part-time sort of 
civilian militia which assisted the RUC in security operations. 
He was simply prosecuted for the theft of the weapon, and the 
weapon itself was never recovered. But it is clear, given the 
records of the weapon----
    Mr. Gilman. How did the killer obtain that weapon?
    Mr. Finucane. It was passed to loyalist paramilitaries 
presumably by the person who stole it. But the reason that it 
could be identified as a State-held weapon was because of the 
ballistic markings on the bullets.
    Mr. Gilman. Which paramilitary was it given to?
    Mr. Finucane. It was given to the Ulster Freedom Fighters.
    Mr. Gilman. I'm sorry?
    Mr. Finucane. The Ulster Freedom Fighters. They are, and 
have been for many years, the paramilitary wing of an 
organization called the Ulster Defense Association, which is 
also now proscribed.
    Mr. Gilman. Thank you. Thank you, Mr. Chairman. I regret I 
have to go on to another hearing and I want to thank you both 
for being here today.
    Mr. Smith. Because the clock ran out, I would like to show 
some small courtesy to those members who were not able to ask 
questions in the last panel, and so we will go to them first.
    Mr. Payne.
    Mr. Payne. Thank you very much, Mr. Smith, and let me once 
again commend you for this fourth in a series of hearings that 
you've had. I think that with the persistence that you have 
shown on this, hopefully we will see some changes. We have 
already seen some come about, but we have a long way to go.
    Unfortunately, Mr. Patten had to leave. I wanted to just 
ask him again about making an analogy between an investigation 
of misconduct by police as a witch hunt. I think a witch hunt 
is not an investigation of a police department. If the 
connotation of an investigation by internal or external forces 
of the RUC is in his mind a witch hunt, I just wanted to put 
that on the record.
    Also, regarding the statement that he made regarding the 
use of, as he calls it, plastic baton rounds, or plastic 
bullets, I have legislation asking for a ban on the manufacture 
of plastic bullets in the U.S. and urging the RUC to cease 
using them.
    I keep one of these on my desk, and each time we have a 
hearing I just bring it along, because he says there is no 
other alternative other than to simply use bullets or this. 
These have killed 17 people and when they hit young people, 
they just rip eyes out of their head and tear their bodies 
apart, sometimes using so many that the guns are too hot to 
hold. That is wrong and it is unnecessary and I still cannot 
understand why there is a resistance to stop using these lethal 
weapons as a means of crowd control.
    Let me just say that in addition, I think to your 
investigation, the investigation of your father's death, I 
think that Bloody Sunday in 1972 needs to be reopened. That is 
something that is another whitewash of the government.
    Finally, I just want to say that I agree with other 
speakers that the RUC needs to be disbanded totally. It makes 
no sense to have so many technical changes. I can use the 
situation in Haiti. I was there 2 weeks ago. They had a police 
department in Port-Au-Prince run by a member of the military, a 
fellow named Francois Mishon. The army did the rest of the 
policing run by General Raoul Cedras. What they did in Haiti 
was to disband the army and disband the Port-Au-Prince Police 
Department. They have started from scratch with new recruits, 
with a brand new police department. Now they are struggling and 
they are moving along, but in my opinion, that is what has to 
happen to the RUC.
    You cannot reform, talking about 10 years from now, 50 
percent. How can you have the RUC patrolling in Derry where you 
have 90 percent Catholic and you have got a 95 percent 
Protestant military? That will never work. So I think that 
there are examples of places in other parts of the world that 
can be looked at and studied to see how you go about having a 
new police unit there.
    Finally, there is the tension that is built during the 
marching season. I have been down in lower Armagh Road, I have 
stayed right on Garvaghy Road 2 years ago, right on the road 
itself, my three or four trips there during the marching 
season. I think that the Parades Committee does not do the job 
that it should do. In the last year, they have tended to 
acquiesce, but I am looking toward the future. They refuse to 
meet with the community groups as it is in the protocol of the 
Parades Committee, and the agitation continually of the 
marchers which creates the tension is really something that I 
think needs to be restudied carefully by the Parades Committee.
    The fact that the tension still remains is something that I 
believe is a major issue as we move forward. I have no 
questions, Mr. Chairman. I just wanted to make those several 
statements.
    Once again, I commend you and of course Mr. Posner and Mr. 
Finucane for coming. Thank you.
    Mr. Smith. Thank you very much.
    Mr. Posner. Could I just react to one? The first thing you 
said I think is important with respect to the inquiry. Some of 
our colleagues are going to talk about the absence of a vetting 
procedure and the Commission report. Chairman Smith, you 
mentioned it. I think we have to recognize the report is what 
it is now. The question is how to move forward.
    It seems to me that the most critical element here is you 
have to, rather than saying all right, there's this whole big 
mass of cases, we have to start somewhere, there has to be 
right now at a very early stage here, before things get adrift, 
there has to be pressure to say, in the Finucane case, in the 
Nelson case, and half a dozen others that we all know, there 
has to be a change here. Because if there isn't a change and 
there isn't some sense of accountability, personal 
accountability, criminal accountability, then you are never 
going to get the change culture and you are never going to get 
young Catholic kids to decide they want to be part of the 
police. All these things are linked together.
    But I think the Patten Commission have put together a very 
ambitious plan, but a critical element is missing. It is for 
us, all of us who are concerned about these issues and 
particularly you all, to keep the pressure up, to keep saying 
this is too critical a moment to abandon the effort to really 
get at accountability. I appreciate your comment.
    Mr. Smith. Mr. Delahunt.
    Mr. Delahunt. Thank you very much. I appreciate your 
testimony today. I was going to ask a question similar to the 
statement posed by my colleague from New Jersey, Mr. Payne.
    There is much that is positive within the report. I think 
we have heard your concerns regarding the vetting process, 
regarding individual cases that certainly have great validity 
and legitimacy. But my fundamental concern is the pace of the 
change. The reality is that we know that the RUC is not going 
to be disbanded. That clearly was the conclusion of the 
Commission.
    But as Mr. Payne pointed out, it has been less than 3 years 
since the Haitian National Police have been constituted 
absolutely from the beginning. We had the disbanding of the 
military. I would suggest that the goals that have been 
established, a third within 10 years, are simply not 
satisfactory. First, from the perspective of a third, clearly 
within 10 years presumably, that will not be reflective of the 
community at large. I dare say by then the religious breakdown 
will be close to 50 percent. Again I am not suggesting that 
these are quotas, and I don't think that is how we should 
approach the issue, but if we are going to have a change in the 
culture, am I correct in concluding that until there is an 
appropriate reflection of the composition, that culture will 
never change, or at least the confidence of the community at 
large will simply not exist?
    He made the analogy with the fact that it took decades in 
New York City, but that is an analogy I don't think that really 
stands up to close analysis. Here we have a situation where it 
is clear that it is a political issue, as Mr. Patten indicated 
himself, and that was an issue that was deferred. I think he 
described it as really one of the core issues in terms of the 
hopes for peace in Northern Ireland.
    That certainly wasn't the case in New York City or any 
other major American city. So is it really a question of 
political will? Is it lack of resources? But that is a concern 
that I have. Someone raised the issue, I think it might have 
been Chairman Smith, in terms of membership in various orders, 
and he drew the analogy with the Order of Hibernians and the 
Orange Order. I am sure we don't have to be concerned about 
members of the Hibernians in the RUC. There are only about 6 
percent Catholics to begin with. I don't know what we can do 
about it. But clearly I think 10 years is unacceptable. That 
composition and that change which I think is so important in 
terms of the confidence of again the community at large, can 
occur within a matter of several years if the political will 
and the resources that are necessary are available. I would be 
interested in your comments.
    Mr. Posner. In March I traveled in Northern Ireland with 
Robert McGuire, who is a former police commissioner of New 
York, and we spent several hours speaking with Mr. Flanagan and 
about 20 people in the RUC. We had just this discussion. I 
think the thing that we stressed to them, and I believe very 
strongly, is that there needs to be a very dramatic shift so 
that there is a critical mass within the police that in effect 
begins to change the culture. When you talk to people, 
Catholics, who are contemplating being in the police, one of 
the things they say, and it makes sense, is, ``I don't want to 
be the only one,'' or, ``I don't want to be one of a few.'' .
    So I agree with you. I think the direction here of the 
report is right but it is a very cautious, slow, and I think 
too slow approach. I also think, even if you take a more 
aggressive approach with numbers, those numbers are going to be 
fictitious unless you do change the underlying assumptions of 
this force. It is operated almost as an armed force, an army, 
more than a police force. It has been unaccountable on a 
variety of levels which are spelled out in the report.
    Mr. Delahunt. I think that is accurate. The fact that it 
has shifted, if you will, to an understanding that it is not an 
instrument of the State, but there to protect the civil 
liberties and the human rights of each citizen is very 
positive; but that, in and of itself, the mission statement is 
not going to change until you have implemented it, I believe, 
with a force that is more reflective again of the entire 
community. But 10 years?
    In my previous career, I was the elected chief prosecutor 
in the metropolitan Boston area. Given the resources that are 
available now and given what hopefully exists in terms of the 
political will at least that has been expressed by the British 
Government and others, that that 10 years can be reduced to 
several years, and it is important now to aggressively recruit 
from the Nationals community, from the Catholic community.
    Mr. Payne. If the gentleman will yield, the other fallacy 
is simply this: If you bring in new people at the bottom, then 
those who are members of the RUC at this time will be in 
control for the next 5 or 6 decades. They will be pushed up, 
they will be in control, and the leadership of the RUC will not 
reflect the new people coming in. It cannot work. It will be 
the same culture at the top as they move up to the top, as they 
bring in new people. They will be controlling all of that. We 
have the same situation as some other police units. You have to 
just disband. I know it is a radical thing, but that is the 
only thing, in my opinion, that will truly work.
    Mr. Finucane. Mr. Chairman, I would please just like to 
add, one of the things Mr. Patten said this morning when 
commenting on his report was that the 30 percent composition of 
Catholic officers was the outside margin of his projection, it 
was the best case scenario and a change of 50 percent, I 
assume, coming with a greater influx of female officers, which 
are also lacking in the force at the moment.
    But the problem here is that if you have new officers being 
recruited, even aggressively recruited from Catholic and 
Nationalist areas, they are going to be instructed by the older 
officers, who are not officers who have practiced their trade, 
as it were, with any thoughts of human rights. In fact, it has 
been completely the opposite. It is my view that what they will 
be passing on is not techniques of how to respect other people 
and to achieve results through tolerance and understanding, but 
basically to instruct people as to what they can get away with. 
Past case evidence has shown that they are capable of getting 
away with everything from murder down.
    I would also like to say that the change in the RUC is not 
just a question of political will. It has to happen anyway, 
from simple kinds of efficiency--the force is unworkable--right 
down to fundamental distrust and rejection by large sections of 
the community where there has to be root and branch reform at 
every level.
    There also needs to be an external catalyst. It is my view 
that an independent inquiry into harassment of lawyers on the 
murders of my father and Rosemary Nelson could very well 
provide that catalyst. Over the last 10 years, it has always 
been the approach of my family when seeking support, not to 
overtly try to persuade persons in influential positions, but 
simply to present them with the evidence. Without exception, 
they have all come back with exactly the same conclusions that 
we have reached.
    Given that that is the case and given you really can't go 
any further, if I may be slightly sycophantic for a second, 
than Congress or the U.N. In seeking support, and we have got 
the support of both those institutions, I see no reason why the 
British Government, if they don't want to take my word for it 
or my family's word for it, then they really ought to take the 
word of this institution or the United Nations and institute an 
inquiry. Because not only will it deal with the problem and 
bring to light all of the facts that are emerging piecemeal, 
but it will have a tumultuous effect on the confidence of 
Nationalists in the will of the State to reform its own 
institutions and to face up to the wrongdoing that has been 
done.
    That need not necessarily involve criminal prosecutions, 
but the acknowledgment has to be there, as was seen in the 
truth and reconciliation hearings in South Africa.
    Mr. Smith. Let me just ask you, you answered my earlier 
questions of Commissioner Patten and Senator Hayes on the whole 
issue of vetting. Frankly, as I read the report, and I read it 
twice, once with a pen in my hand, it was filled with markings, 
and the next time with a yellow highlighter. I seemed to 
underline all the same things. It is the glaring omissions as 
well, as you have pointed out so well, that are probably the 
most troubling. Why weren't defense attorneys included? That is 
an issue that we have raised, we have had resolutions passed in 
Congress, we have had linked it to RUC training with the FBI, a 
proposal which is still in conference with the Senate. I had 
offered that. It was a bipartisan effort. Mr. King and I, and 
many of us were behind that, making future training contingent 
on whether or not there is an independent inquiry into Patrick 
Finucane's murder and Rosemary Nelson's. Yet we still seem 
stuck. Are they afraid as to where it might go in terms of how 
high into the structure?
    I was struck by Senator Hayes's comment about being forward 
thinking. I tried to convey back to him, as you probably heard, 
that in order to go forward, you need to look back. Past is 
prologue. If you have, as they call it in the report, ``bad 
apples'' within the system, particularly if they are in the 
Special Branch in a higher proportion than anywhere else, 
simply offering a golden parachute, which is suggested here, 
might get the good people to leave, while the others who cling 
to power and to abuse of power are perhaps more likely to stay 
without a vetting process.
    I am glad, Mr. Payne pointed out, as I tried to do at the 
moment it was mentioned by Mr. Patten, that to suggest in any 
way, shape, or form that this is a witch hunt is nonsensical. 
This is an effort, as we have in our own police forces here in 
the United States, to track down those who abuse, those who 
beat, those who do horrific things against innocent people, or 
even accused people who may end up being convicted. They still 
are entitled to due process rights as well as an absolute 
freedom from beatings and torture and all the other things that 
are employed.
    These missing elements really concern me. As I said to the 
British Ambassador when we met several weeks ago, which was the 
genesis of this hearing when we made the request that 
Commissioner Patten testify, I am also concerned about this 
being the high bar or a ceiling, and then as we go through the 
process in the Parliament, things get left out, things don't 
get included in the legislation; and then everyone says we have 
done that, we have got the T-shirt, and we move on. That would 
be a major, major problem.
    I can assure you, Mr. Finucane, that we will be ever 
vigilant on this Committee, we will be bipartisan in to keeping 
the call for an independent inquiry into your father's death 
alive. We will increasingly link it to other things, even as 
this process goes forward, because you cannot move forward if 
you still have this terrible taint and these horrible things in 
the background.
    It reminds me of a cancer, if I may use a health metaphor. 
If you don't get it all, it comes back to haunt you. No matter 
how good the operating surgeon is, he has got to be sure to get 
it all; then to pile on with the chemotherapy and radioactive 
efforts to try to kill it.
    We need to have a vetting process that gets at this, those 
so-called bad apples, as they continually refer to them as, and 
do it once and for all. There is international precedent for 
it. I tried to convey that to Commissioner Patten. We will 
continue to do so, because again it is a serious omission. But 
why was it left out? Was it for consensus purposes?
    Mr. Posner. I am not privy to the internal conversations, 
but it was clearly a lot of inferences in the report that were 
never explicitly said. The references to accountability 
throughout the report I think reflect the fact that this has 
been a largely unaccountable institution on every level. It is 
not just human rights cases. It has been a bloated, inefficient 
and unaccountable institution.
    We were given a report by the chief constable. In 1997, 
there were 5,500 complaints made to the police about their 
force. That year, one person was dismissed from the force--
5,500 complaints. We asked, How could that be. They said, We 
have an excellent force. Well, the answer is there is no 
internal discipline. We have got to assume here that the Patten 
Commission knew that and that the code of accountability says 
there has to be some internal process to change that. It is not 
going to happen unless there is external pressure. That is why 
we need an ombudsman, we need this Oversight Commissioner to be 
tough and strong.
    It is critical for you, Congressman, and others here to 
keep putting the pressure on because this is going to be a hard 
fight.
    Mr. Smith. I was struck by the comment--Mr. Finucane, did 
you want to comment?
    Mr. Finucane. Just to say, Mr. Patten said this morning 
that you couldn't really cherry-pick the report. I agree. I 
also agree with him when he says it hangs together very well.
    But I must also, with some disappointment, agree with an 
earlier comment that was made here today, that you now have to 
take the report as it is. The fact is, no vetting mechanism has 
been proposed. Therefore, there has to be, unless the 
recommendations are augmented in Parliament, then there has to 
be an external mechanism. Certainly one thing that I believe is 
crucial, and not just for my own or my family's purposes, is 
clearing up this issue of harassment of defense lawyers and 
collusion as a whole, because in relation to the reasons why 
the Patten Commission perhaps didn't address this is because, 
yes, it goes to the very top, it goes right through everything. 
On the one hand, you have an argument that every single person 
in Northern Ireland killed by Loyalists was probably the victim 
of collusion, to the other end of the spectrum, where the 
argument is that perhaps not all persons were victims of 
collusion, or their killings involved collusion but there were 
very many people who were specifically targeted by the 
government and the RUC to be removed because they were 
undesirables. Those are the spectrums of the argument: 
everybody or a few selective individuals. So it exists. It is 
undeniable that it exists.
    While the RUC personnel and the intelligence personnel were 
using this network, there was a network in place. I don't think 
the Patten Commission were prepared to take that on quite 
simply.
    Mr. Smith. In a sense, they have cherry-picked the 
fundamental issue. They are asking that the report not be 
cherry-picked, but they have left aside some of the key issues 
that should have been addressed.
    Plastic baton rounds, according to the report, were fired 
56,000 times, resulting in, according to their numbers, 16 
deaths, although I often hear 17 deaths and 615 injuries. 
Interestingly, it is pointed out in the report that they are 
available for use in other UK police services. Although there 
have been some close calls, it continues, they have never 
actually been used. Fifty-six thousand times they have been 
used in the north of Ireland, never been used anywhere else. It 
does raise an issue almost like you said, Mr. Posner, about 
only one police officer paying a consequence for abusive 
behavior.
    How do you respond to the comments that Mr. Patten made 
earlier, that rather than using live rounds, this is something 
that his Commission has concluded should still be available for 
use?
    Mr. Posner. I know that Jane Winter is going to speak to 
this directly. We recommended in our submission to the Patten 
Commission that plastic bullets be eliminated. We did that 
after talking to a number of police people, including some of 
the people who run crowd control for the New York City police, 
and they said, very simply, when you pose this as an option, 
then these are going to be used a lot more frequently and a lot 
less discriminantly, and there are going to be the kinds of 
eyes taken out and killings that we have seen.
    So I think you can say, yeah, let's tighten up the use, but 
in reality they shouldn't be used at all. They are not used 
anywhere else in Western Europe, they are not used here. There 
are alternatives to crowd control. This is about crowd control 
in very dangerous situations. Let's not minimize it, but at the 
same time let's recognize that police deal with dangerous 
crowds all over the world and they don't use plastic bullets.
    Mr. Finucane. I would echo those comments very strongly and 
also point to the fact that the very name of the weapon, 
plastic bullet, really ought to be off the landscape in 
Northern Ireland once and for all, because not only is it 
capable of inflicting the injury that we have seen but it 
carries a very haunting ring for just about everybody. It is a 
cross-community issue, because they have been used against both 
communities. They quite simply need to be eradicated. There are 
alternatives. Those alternatives ought to be used.
    There are crowd control--Mr. Patten--the report itself 
takes a lot of guidance from police practice in Britain, while 
police forces in Britain have to deal with crowd control 
situations, too, and they don't deploy plastic bullets or PBR's 
or whatever they want to call them in Britain. So they 
shouldn't be deployed in Northern Ireland.
    Mr. Smith. I was struck in reading the report, the 
recommendation is to close the three detention centers but not 
to lift the powers that are vested in the police that make 
those centers infamous. Do you think that was some kind of 
compromise on the Commission's part? The statement, like I said 
in my opening comments, looks good on its face about emergency 
powers, but then in parentheses, they almost carte blanche 
suggest that well, let's just keep records and see what 
Parliament does.
    Mr. Posner. Again, I know one of our colleagues is going to 
speak to this in a few moments, but I think unanimously the 
human rights groups that made submissions to the Commission 
said the Commission ought to call for an end of emergency 
powers, emergency legislation. It is part of the framework that 
allows the police to operate as an army. If you are going to 
say this is a normal situation, a situation where law and 
rights prevail, then you operate according to law and it ought 
not to be emergency law. I think it is a missed opportunity.
    Mr. Crowley. Mr. Chairman, just some housekeeping. Not 
being a Member of the Subcommittee, I just would ask unanimous 
consent to have my opening statement and questions entered into 
the record.
    Mr. Smith. Without objection.
    Mr. Crowley. Thank you.
    Let me thank you, first of all, for holding this 
Subcommittee hearing today. I am honored to be in the presence 
of the son of Patrick Finucane. I didn't have the opportunity 
to meet your father but I feel as though I have known him for 
many years, having been involved in the issue of Northern 
Ireland, first in the State legislature of New York and now 
here in Congress.
    Let me just make one other point about the cherry-picking 
issue again. I don't think a report of this magnitude, so 
detailed and in depth in the reconstruction of the Royal Ulster 
Constabulary could go without the expression of legitimate 
concerns by all sides, and that means Unionists, Loyalists, 
Catholic, Protestant and Nationalist.
    With all respect to Mr. Patten, I think this was a 
difficult task. I don't think this was an easy job to begin 
with. I didn't mean to be flippant by any means, and time was 
short, in making reference to the fact that--I made note of 175 
recommendations tantamount, in essence, of totally 
reconstructing the RUC without actually stating that--without 
actually going back to the drawing board in ways that have been 
accomplished in other regions like Haiti and other countries in 
the world. I believe that this report is a beginning, as was 
mentioned earlier by Chairman Smith.
    I do think, though, that in order for there to really be 
peace with justice in the north of Ireland, vetting will have 
to be a component at some point. Whether it comes about because 
of criticism in this report, at some point in the history of 
Northern Ireland, vetting will have to be addressed. Truth and 
reconciliation will have to be addressed. It is unfortunate 
that it was not in this report. I am hopeful that in the future 
that it will happen.
    In light of the fact that I have just read The Committee, 
and again a book that has not gone without its criticisms, 
aside from your father's murder, there are a number of murders 
that are mentioned in that book, one of a police officer in the 
north of Ireland who was executed apparently, supposedly, by 
members of the RUC, his brothers and sisters whom he worked 
with on a daily basis, solely because he was Roman Catholic, 
presumably of the Nationalist community.
    Until individuals of that character and nature are rooted 
out of the police force in the north of Ireland, it will not be 
a legitimate police force.
    I will add again, Commissioner Patten made reference to the 
fact that we, a number of Members on this panel and this 
Committee have problems with the RUC working closely with the 
Garda. I myself was outspoken when the PBA of the New York City 
Police Department invited the Garda to a boxing match, and the 
Garda in turn invited the members of the RUC to participate in 
that match. I was critical and was attacked by members of the 
RUC for not being sensitive to what they were trying to do in 
bridging the police forces.
    When I countered that I believe that it is an illegitimate 
police force and we should not be, in this country, 
legitimatizing them. I really believe that is what they are 
trying to do, to make themselves a legitimate force by 
participating in these charitable events, to put a rosier 
picture on their past, I don't think they can do that simply by 
boxing, but I would not be a part of that, nor Mr. King nor Mr. 
Smith.
    I come from New York City. I come from a police department 
that has known problems throughout its history, quite frankly; 
none, more recently, than we have seen in the Bronx this year 
and last year. We in New York City are not above saying that we 
have problems with our police department. We can argue whether 
it is enough. We do have a civilian complaint review board. We 
have a process by which the police department is investigated 
both within and outside the department.
    It is just incredible that that doesn't exist in Northern 
Ireland to the degree it ought to, given the fact that there is 
such a divide within that province. It is just incredible and 
unconscionable that it is not being moved forward at this point 
in time.
    I want to thank, again, Chairman Smith and I want to thank 
you both for your testimony today.
    [The prepared statement of Mr. Crowley appears in the 
appendix.]
    Mr. Smith. We are joined by Congressman Kucinich from Ohio, 
who is not a Member of this Committee but is very interested in 
these issues and once was a Member of the Committee.
    Mr. Kucinich. Thank you very much, Mr. Smith, Mr. Crowley.
    Mr. Smith, I have appreciated your longstanding commitment 
to human rights all over the world. This hearing continues to 
reflect that commitment that you have, a commitment that I 
share. In reviewing elements of the report and hearing the 
testimony of Mr. Finucane and Mr. Posner, the thing that occurs 
to me is that while there is much that is praiseworthy with 
respect to advocating human rights-based police service, there 
seems to be an inherent contradiction here. That is, as the 
report depends for its success on human rights-based police 
service, a mechanism for enforcement of those high principles 
would rely not simply on hoped-for improvements in the system, 
but it seems to me structurally it would rely on a willingness 
of this system as we hope to see it evolve to tolerate 
challenges to its deficiencies. It is a structural question 
here.
    Human rights attorneys challenged a system prior to this 
kind of a report. Ten years ago, Patrick Finucane met a very 
unjust and unfortunate end as a result of challenging a system 
that wasn't working and at that point the system hadn't 
promised anything. Ten years later, while people are talking 
about doing something about this system, Rosemary Nelson was 
killed.
    Now, it seems to me that unless--that first of all, because 
this report ignored the issue of what happened to the attorneys 
who were human rights advocates, and because the report does 
not recommend any external mechanisms for enforcement, no 
matter how well-intentioned the sentiments may be, the report 
is going to have difficulty being able to be effective, it 
would seem, because here you have a system where human rights 
attorneys and advocates have to worry for their safety; because 
that hasn't been addressed, and categorically there is a reason 
to wonder if all of this is really going to happen and will 
result in an improvement of human rights, which is what the 
report says it wants to do.
    So the fact that Mr. Posner mentions 5,500 reports, one 
person called to accountability, where is the mechanism? There 
is an inherent contradiction. I wanted to point that out, 
because we all want to see human rights-based police service. 
But there has got to be something in this system that tolerates 
the calling of where the system falls short, and it is not 
there. Unless I missed something, it doesn't seem to be there.
    That is where I think this Committee, and the Chair's 
insistence on finding vehicles for pressing the issue, is very 
important. Your report has some good things, but we want to 
make it work.
    Mr. Posner. Can I react to that very quickly? I share your 
sentiments exactly. It does seem to me that there are some 
again almost code phrases in the report that we ought to be 
picking up on. One relates to the internal structure and 
responsibility of the force and of the chief constable. They 
use a phrase here, they say that the chief constable should go 
from what he has called operational independence to operational 
responsibility. I don't know exactly what those phrases mean. 
It is code for something. It suggests he is less independent 
than he once was. He has less responsibility, but it is not 
spelled out in any concrete way.
    I think one of the challenges here is going to be when 
there is a lack of responsibility or when something goes wrong, 
what happens? Who says what to who and what happens next?
    Mr. Kucinich. You could look at it another way; that is, 
notwithstanding the fact that Mr. Patten did condemn in very 
strong terms the murder of Rosemary Nelson--that has to be 
noted for the record again--notwithstanding that, it seems to 
me it would be easy to hold up the report to the RUC and say, 
``Hey, boys, there's nothing in here.'' .
    Mr. Posner. Those are exactly the conversations that we 
have to be most afraid of now. Externally, I think the pressure 
has got to come from here, it has got to come from the U.N. and 
from elsewhere. People have got to say, the proof is in the 
pudding. We have to see results. That is really where we are 
today.
    Mr. Kucinich. We also want to make it possible for 
attorneys who want to stand up for human rights now to let them 
know that more efforts are going to be made. Human rights 
attorneys, it would seem to me, in reading this report, 
couldn't take much comfort from the fact that they can keep 
doing their work. The report doesn't make it very easy for them 
to have some comfort when it doesn't mention that some people 
have had to pay with their lives, and it doesn't advocate doing 
anything about that.
    I don't think anyone could even comprehend the kind of 
suffering your family has gone through, but let it be said that 
there are those of us on the other side here who want to make 
sure that we learn from those tragedies and try to help the 
condition improve, so that people's human rights can really be 
protected, not just with a report. Thank you.
    Mr. Smith. I thank you very much, Mr. Kucinich. Do either 
of you have anything to add? Mr. Finucane?
    Mr. Finucane. Just in very brief response to Mr. Kucinich's 
last comment, I think it is absolutely right that the people 
who would probably be most relieved when this report came out 
were the people who feared, with good reason, that their jobs 
might be on the line. The reason Rosemary Nelson was eventually 
murdered was because, within a force that had contempt for the 
rule of lawyers and the work that they did and the people that 
they represented and the misidentification of lawyers with the 
cases that they were working on, was fostered within the 
institution as a whole and tacitly condoned by the government, 
both in the Northern Ireland office and in Westminster.
    If that atmosphere is to be broken and the responsibility 
to come down to the individual officer and back up the chain to 
the chief constable that on an individual basis we will not 
tolerate human rights abuses or abusers, and on that basis it 
needs to be made the responsibility of every police service 
officer to take human rights as their personal responsibility.
    There are many ways that this can be dealt with, both 
through peer pressure--and there was a suggestion of immunity 
or protection for those who were prepared to come forward and 
give details or testimony on that, fellow officers who were 
guilty of the most egregious human rights abuses. But the whole 
focus here and certainly in terms of defense attorneys and in 
terms of human rights abuses as a whole is that these things 
must never be allowed to happen again. That was the focus of 
certainly my work and the work of everybody else here. Sadly we 
couldn't protect Rosemary. But the people who can and should 
have protected her are still there. The government that should 
have protected her is still in office, and they can't be let 
off the hook. They have responsibilities. They said they would 
do this. The force, if you believe the public pronouncements, 
is prepared and willing to change. Let's call them up on that 
and keep the pressure on. Thank you.
    Mr. Smith. Thank you very much.
    Mr. Finucane, Mr. Posner, thank you.
    I would like to ask our third panel if they would proceed 
to the table.
    Maggie Beirne has served since 1995 as the Research and 
Policy Officer to the Committee on the Administration of 
Justice, CAJ, a cross-community group based in Belfast. Before 
that, Ms. Byrne worked for 17 years at the International 
Secretariat of Amnesty International and was a member of the 
Amnesty senior management team.
    Julia Hall is Northern Ireland Researcher and Counsel to 
Human Rights Watch. Ms. Hall earned her J.D. At the State 
University of New York at Buffalo school of law and holds a 
certificate of international law from the Hague Academy of 
International Law and has been a great source of accurate and 
timely information about human rights to this Subcommittee for 
years. We do thank her for that.
    Jane Winter is the Director of the British Irish Rights 
Watch. Prior to her work with that organization, she was the 
Project Coordinator for the Public Law Project. Her past 
experience includes work on welfare rights, employment and 
immigration issues for both the Battersea Law Center and the 
Citizens Advice Bureau in the United Kingdom.
    Mr. Smith. Ms. Beirne, if you could begin.

STATEMENT OF MAGGIE BEIRNE, COMMITTEE ON THE ADMINISTRATION OF 
                        JUSTICE, BELFAST

    Ms. Beirne. Mr. Chairman, I would like to first thank you 
for your invitation to testify today. We would also like to 
join with many of the other speakers in thanking this Committee 
for their excellent scrutiny that it has given to concerns 
about human rights in Northern Ireland and the bipartisan 
approach that you have taken. The CAJ, as you know, is an 
independent human rights organization based in Northern 
Ireland. We work across a wide range of human rights and civil 
liberties concerns and have been working on policing since 
1981.
    As early as 1995, CAJ argued for an independent 
international Commission to look into future policing in 
Northern Ireland, and we worked to ensure that reference to 
such a body was included in the Good Friday Agreement. We 
welcomed the broad terms of reference given to the Commission 
by the Agreement and sought to work constructively with the 
Commission as soon as it came into being under the leadership 
of Chris Patten.
    We were fortunate enough to have secured earlier funding 
from the Ford Foundation and others to undertake a major 
comparative research project into good policing practice in a 
variety of jurisdictions around the world.
    The findings arising from that study have underpinned all 
our work with the Commission. In fact, we relayed some of those 
findings to your Committee earlier this year. We believe that 
they have proved useful to the Commission in its work. This 
shouldn't be surprising, since we think that the policing 
problems in Northern Ireland differ in degree rather than 
nature from those faced by many other countries around the 
world. In fact, some of those analogies have been already made 
this morning.
    As you know, the Patten Commission worked for over 15 
months, studied well over 2,000 written submissions, held 
hundreds of meetings and received personal testimony from a 
wide variety of people. CAJ attended many of the meetings and 
studied the submissions of the political parties and other key 
social partners. What was apparent to us was that despite the 
difficulties and disagreement, there was also a surprising 
level of consensus across the political divide about key 
aspects of the way forward.
    In order to buildupon that consensus, we organized a 
conference in February of this year which brought together a 
very diverse audience of statutory groups, the police, 
government bodies, local party politicians, voluntary groups 
and community activists across the Republican and Loyalist 
communities.
    On the basis of those exchanges, we developed a series of 
human rights benchmarks for policing change, and we would like 
to have those benchmarks read into the record, if that is 
acceptable.
    Mr. Smith. Without objection, they will be made part of the 
record.
    Ms. Beirne. Thank you. Those benchmarks go into some more 
detail--but as a minimum, we would propose major 
recommendations in the area of dealing with under 
representation of Catholics, Nationalists, women and ethnic 
minorities, issues of accountability to the law, the overhaul 
of police training, the creation of a neutral working 
environment, the creation of new structures, and developing 
greater democratic accountability.
    Overall, the whole package of change should be tested 
against its ability to deliver policing arrangements, which 
would mean that you would never again have to listen to the 
testimony you heard this morning from Michael Finucane about 
the death of his father, or a case that is very close to you, 
that of Rosemary Nelson whom you heard from just last year--and 
that we in Northern Ireland never have to experience such 
abuses again.
    In general terms, we think the Commission has made a very 
genuine and constructive effort to meet the difficult task 
imposed on it by the Agreement. They have addressed all of the 
issues that we have referred to above and put forward many 
thoughtful and positive recommendations about the way forward. 
Most importantly, they have recognized, as did the Agreement, 
that just as human rights must be at the heart of a just and 
peaceful society in Northern Ireland, it must be at the heart 
of future policing arrangements.
    In spite of these positive comments, we still nevertheless 
have some important reservations. Other colleagues will refer 
to major concerns we all share with regard to the failure of 
the Commission to put in place a mechanism to deal with 
officers who have committed human rights abuses in the past. 
This issue has already been addressed several times this 
morning, and Julia Hall will be talking to it directly, but it 
is obviously a concern that we share. Also, their failure to 
end the use of plastic bullets and, particularly relevant again 
to much of the testimony you received this morning, the 
Commission's failure to lend its voice to the importance of 
defense lawyers being intimidated or even killed in carrying 
out their work.
    This particular testimony, while sharing the concerns of 
those who preceded or will follow us, will concentrate on two 
specific issues that perhaps have had less attention in the 
debate so far. One is Emergency Powers and the other is 
accountability.
    Emergency Powers have been a feature of life in Northern 
Ireland since the 1920's. The legislation allows the police to 
stop and search without reasonable suspicion, initially to hold 
detainees for 48 hours and then, with further authorization, up 
to a total of 7 days, and to deny access to a solicitor for the 
first 48 hours and for periods thereafter. Combining this with 
the removal of the right to silence, the removal of the right 
to jury trial, the weight which can be placed on confession 
evidence alone and the absence, until recently, of video- or 
audio taping of interrogations, such powers lead to serious 
human rights abuses, including serious ill treatment of 
detainees and the abuse and intimidation of defense lawyers.
    It is clear that if these abusive powers are not removed, 
the risk is very high that officers, even in a new police 
service with a new uniform, a new oath and better training, are 
likely to continue to abuse human rights. This, anyway, is the 
experience around the world, so we have no reason to think that 
Northern Ireland would be any different.
    Yet in the Policing Commission's report, this fundamental 
issue gets two paragraphs. They cite academics McGarry and 
O'Leary (John McGarry also testified to you earlier this year) 
that much of the dissatisfaction with policing, in both 
Loyalist and Republican areas, stems from the use of Emergency 
Powers. Our own belief, shared by all the other human rights 
organizations present, is that the Commission should have 
recommended the immediate repeal of emergency laws, and argued 
for a reliance on the ordinary criminal law. Certainly the 
logic of their emphasis on international human rights standards 
would suggest that frequent U.N. Calls for the repeal of 
emergency legislation should have been heeded.
    Again to pick up on some of the earlier comments, the 
language on respect of rights has to then be explored in terms 
of formal recommendations. The failure to make such a 
recommendation is all the more inexplicable when looking at the 
current security situation in Northern Ireland, which it could 
be argued poses a much smaller risk to the average person 
living in London or Manchester and probably a lot less than 
Washington, D.C.
    The second issue I would like to focus on is that of 
accountability. Of all the topics tackled, this is probably the 
one where Patten responded most effectively to the oft-repeated 
concerns of the general public about the need for greater 
accountability. There are many positive recommendations.
    However, at least two important problems remain. Patten 
endorses all the proposals about a more effective complaints 
system included in an earlier report by Dr. Hayes and urges 
that those findings be implemented. It is clear, therefore, 
that the Commission intended that the authorities tackle the 
unacceptably high standard of proof required in complaints 
against the police. Yet no specific recommendation is made to 
this effect, and there is a risk, obviously, if there is no 
specific recommendation, that it will be overlooked and that we 
won't get a really credible complaint system.
    Another concern under the rubric of accountability is the 
role that is envisaged for democratic control at the local 
level. It appears to us that the recommendation to establish 
district policing partnership boards which are merely--and I 
quote from the report--advisory, explanatory and consultative, 
will have little or no greater powers than their largely 
disparaged predecessors.
    Despite these concerns and the others raised by my 
colleagues, I want to emphasize again that we found much of 
great value in the Commission's work.
    It is for this reason that this submission will conclude 
with a number of specific requests to this congressional 
Subcommittee.
    Firstly, CAJ believes, along with our human rights 
colleagues, that many of these policing changes are long 
overdue. Many of them have been urged on the government for 
years by various U.N. Bodies and its own independent assessors. 
While the Patten report doesn't deliver everything that we had 
hoped and indeed think necessary to real change, people 
concerned about the protection of human rights certainly cannot 
settle for anything less. The Secretary of State has suggested 
a period of consultation, and following that there is no excuse 
for further delay.
    Congress should urge the U.K. Government to move rapidly to 
implement the various positive recommendations in Patten's 
report.
    Second, implementation is everything, as I said in my last 
testimony before Congressman Gilman's International Relations 
Committee. We argued that Patten's report couldn't be allowed 
to gather dust and warmly welcome the proposal to establish an 
Oversight Commissioner to report publicly and regularly on 
progress achieved. This proposal is all the more important 
given the early emphasis placed by the Chief Constable on the 
need to implement any eventual changes only as and when the 
improving security situation allows it. In fact, the logic of 
Patten is that human rights abuses have fed and fueled the 
conflict and that human rights protection, and therefore 
policing change, must be at the heart of a just and fair 
society.
    Apart from being important in and of itself, it is this 
goal which will most effectively undermine violence. It is 
therefore vitally important that Congress continue to keep a 
watching brief on developments and monitor closely the process 
of implementation.
    Third, there will be no or little effective change in 
policing if the criminal justice system itself does not change. 
If judges continue to be unrepresentative of society as a 
whole, if the prosecution system doesn't operate in a 
sufficiently transparent and independent way, and if there is a 
remarkable predisposition on the part of the judicial system to 
always rely on the testimony of police officers, changes 
elsewhere will be undermined.
    The significance of the criminal justice review, which will 
be reporting in a few weeks' time, cannot be overstated. In 
this regard I would ask to have read into the record material 
from the journalist Ed Moloney in relation to his harassment in 
the Pat Finucane case and the role of the Director of Public 
Prosecutions. We would ask that Members monitor this case and 
the criminal justice review very closely and make 
representations to government accordingly.
    The U.S. Congress has kindly, particularly in recent years, 
devoted much time and energy to the problems of Northern 
Ireland. If we have one message to give, it is that your work 
isn't over just yet. Peace processes are difficult and 
dangerous things, with the ability to fail as well as succeed. 
Securing good policing will be a crucial building block for 
long-term stability and true peace and justice in Northern 
Ireland.
    We are moving in the right direction, but continued 
vigilance will be necessary if we are to be ultimately 
successful. We hope that human rights groups, local as well as 
international, can continue to look to you for your support 
around our concerns.
    On the impending anniversary of Rosemary Nelson's testimony 
to this meeting, it seems the least we can all do is commit 
ourselves to trying to make sure that the policing problems she 
testified about to your Committee are effectively remedied for 
the future.
    [The prepared statement of Ms. Beirne appears in the 
appendix.]
    Mr. Smith. Ms. Beirne, thank you very much for your 
excellent testimony and for the good work that CAJ does.
    On my trip to Belfast a couple of years ago, you and Martin 
O'Brien and others were extraordinarily helpful in helping us 
to understand in our fact-finding mission, the reality as 
divorced from the multiple fictions that are out there. I do 
thank you for that. The fact that you see Protestants and 
Catholics alike, it does not matter, all that you care about is 
human rights, just makes your work all the more credible and we 
are very grateful for it.
    Mr. Smith. Ms. Hall.

  STATEMENT OF JULIA HALL, NORTHERN IRELAND RESEARCHER, HUMAN 
                          RIGHTS WATCH

    Ms. Hall. Thank you, Chairman Smith, for inviting Human 
Rights Watch here again to participate in this very important 
meeting. So very much has been said already about vetting in 
Northern Ireland's police force, but I will try my best to keep 
my comments both relevant and brief.
    First let me say that we recognize the enormity of the task 
presented to the Patten Commission and that the final report 
does indeed contain many progressive proposals for fundamental 
change. We are particularly pleased that the Commission 
proposes a new human rights- based approach and makes many 
recommendations toward that end.
    However, Human Rights Watch fears that, in the end, the 
Commission may have undermined its own handiwork by failing to 
include critical recommendations in the report regarding 
accountability mechanisms for past human rights violations 
committed by the RUC. As you know from my testimony last April 
before the International Affairs Committee, Human Rights Watch 
recommended to the Patten Commission that an independent 
vetting unit be established to screen out currently serving RUC 
officers with poor human rights records. Indeed this was 
perhaps the single most important issue in any of the 
submissions that Human Rights Watch made to the Commission. We 
proposed a model for such a unit and listed primary and 
secondary source material that could be evaluated by a vetting 
unit for evidence of abusive police conduct. We also 
recommended, quite importantly, that all officers enjoy the 
full range of procedural safeguards established under 
international law to protect their fundamental due process 
rights.
    One might ask why we proposed such a process. As a matter 
of fact, more than one member of the Policing Commission told 
us that such a proposal would be politically explosive. Of 
course, we understand this. But we believe that Chairman 
Patten's stated primary goal of depoliticizing policing, as he 
said this morning, should begin from the beginning.
    To be frank, most change in Northern Ireland terms is seen 
as politically explosive, and while it is important for the 
Patten Commission report to be considered on its merits by all 
sides of the community, politically expedient positions should 
not have been part of the Commission's mandate. If Northern 
Ireland is to finally enjoy membership in the community of 
peaceful, democratic nations, and indeed take a genuine human 
rights-based approach to policing, it must be prepared to 
engage in what is an emerging global norm toward international 
justice. That is, the people, political leaders, police and the 
community at large, must consider embracing the notion that 
impunity for human rights violations has no place in a society 
governed and policed by democratic principles.
    The trend toward international justice, holding accountable 
those State actors who have committed egregious human rights 
abuses, is illustrated by the Pinochet case, the ongoing work 
of the ad hoc tribunals on the former Yugoslavia and Rwanda, 
and the vetting of the police force in post conflict Bosnia, 
upon which our model for vetting in Northern Ireland was itself 
based. The message is clear that human rights abusers must be 
held accountable, not as a matter of revenge or retribution, 
but as a matter of justice. We believe that such accountability 
forms the bridge between the past and the future and builds 
confidence in new peacetime structures and arrangements.
    Human Rights Watch welcomes the Patten Commission's 
observations in chapter 5 of the report that proper 
accountability for police misconduct has not been achieved in 
Northern Ireland. We have argued this point repeatedly with the 
RUC, as I know you have, and with the government for a number 
of years. The rote response from both law enforcement and 
government officials has been that there are numerous 
safeguards built into the system and that the RUC already is 
the most scrutinized police force in Europe.
    We are deeply, deeply disappointed, however, that despite 
the unequivocal recognition that the RUC has not been committed 
to human rights-based policing in the past and has not been 
held accountable for its actions, the Patten Commission makes 
no recommendations regarding vetting. A mechanism for 
accountability for past human rights violations would lay a 
firm foundation for the future policing arrangements that the 
Commission has so carefully contemplated. It would send a 
strong message that human rights abuse will not be tolerated in 
the new service and would have provided a fair mechanism by 
which chronic and other violent abusers would be made to answer 
for egregious violations committed with impunity.
    Interestingly, the Patten Commission readily accepts the 
position put forward by Human Rights Watch and many other human 
rights groups in the course of the consultation process that 
abusive police conduct, tolerated by the RUC as an institution, 
has, in fact, occurred in the past, which makes its omission, 
the omission of this issue in the report, all the more 
striking. I quote very briefly from the Commission's report:
    ``we are in no doubt that the RUC has had several officers 
within its ranks over the years who have abused their position. 
Many supporters of the RUC and both serving and retired 
officers have spoken to us about 'bad apples.' it is not 
satisfactory to suggest, as some people have, that one should 
somehow accept that every organization has such bad apples. 
They should be dealt with.
    ``it is not simply individual officers who have been at 
fault here. We are not persuaded that the RUC has in the past 
had adequate systems in place to monitor and, when necessary, 
act upon complaints against officers.'' .
    Now, despite such strong and unequivocal language, the 
Patten Commission itself fails to provide a mechanism by which 
such bad apples can be dealt with, and the RUC can be held 
accountable for institutional tolerance, if not outright 
complicity, in the Commission of past human rights violations. 
In the absence of a screening process to weed out and exclude 
those officers with abusive records, the bad apples and the RUC 
as an institution are effectively offered a grant of amnesty by 
the Patten Commission.
    This is unacceptable and it clearly violates the 
international norm that every person whose rights have been 
violated shall have an effective remedy, notwithstanding that 
the violation has been committed by persons acting in an 
official capacity. Such a grant of amnesty for past abuses also 
violates the international norm that perpetrators of human 
rights violations shall be brought to justice.
    A profoundly disturbing aspect of the Commission's failure 
to provide such an accountability mechanism lies in the naive 
assumption that Catholics and Nationalists will join the new 
policing service based solely on the promise of forward-looking 
arrangements. The commissioners urge the people of Northern 
Ireland to forget the past and embark on a fresh start with 
respect to policing. Claiming that Northern Ireland voted 
overwhelmingly in 1998 to turn its back on the politics of 
revenge and retaliation, the Commission confuses retribution 
with justice and revenge with upholding the rule of law.
    The Patten Commission report claims too much when it 
equates approval of the Good Friday Agreement with a desire and 
willingness to forget past human rights violations. Indeed, 
during the consultation process, commissioners were inundated 
by both written submissions and oral testimony offered at 
community meetings by people who have suffered violations at 
the hands of the RUC and are still seeking effective redress.
    If the people of Northern Ireland wanted to forget the 
past, they would not have wasted valuable time and emotional 
energy informing the Commission that it is justice for 
violations suffered that will lay a firm foundation for their 
acceptance of any new policing structures and arrangements.
    Thus, the Commission has failed to lay the necessary 
groundwork for one of its most critical recommendations, that, 
and I quote, ``All community leaders, including political party 
leaders and local counselors, should take steps to remove all 
discouragements to Members of their communities applying to 
join the police, and make it a priority to encourage them to 
apply.''
    We fear that it is highly unlikely, given the evident 
requirement of many people that abusive officers be held 
accountable, particularly in the Catholic and Nationalist 
communities wherein a disproportionate number of such abuses 
occurred, that a large segment of the population will ever have 
the confidence to join a new policing service that retains 
officers responsible for well-documented egregious human rights 
violations.
    Ms. Hall. I would like to offer very briefly two examples 
of how the absence of a screening process could undermine 
recommendations made in the policing report. With respect to 
the holding centers, Human Rights Watch welcomes the 
Commission's recommendation to close them. However, the Patten 
Commission fails to acknowledge in any part of the report that 
the reason appropriate for closure has been sustained and 
gained momentum over the years is that conditions in the 
centers, supported by provisions of emergence of legislation, 
create the environments conducive to the physical and 
psychological abuse of detainees.
    The United Nations Committee Against Torture has repeatedly 
called for the closure of the holding centers for this very 
reason. There is in fact a small cadre of easily identifiable 
RUC detectives who have been responsible for conducting abusive 
interrogations in the centers for many, many years.
    According to the Commission's ``forget the past 
philosophy,'' these detectives would now be appointed to serve 
in regular police stations where political suspects will be 
held after the centers are closed, or perhaps they will be 
placed in the general policing population to gain experience at 
community policing. They will, in effect, be offered amnesty 
for their abusive practice.
    It is very difficult to expect potential new recruits to 
serve side by side with officers so easily identified as human 
rights violators in the holding centers. I would just draw your 
attention again to the case of David Adams, a man who was 
brutally assaulted in Castlereagh in 1994, and in 1998 he was 
given the highest award of damages ever made against the RUC 
and just last month we understand that the DPP has called for 
no criminal prosecutions for actions that truly amount to 
torture.
    Now, those officers will have not been critically 
prosecuted, have not been disciplined by the RUC, and continue 
to serve in posts in the RUC and over other detainees. Under 
the Patten formula, we see no way out in terms of their 
officers. They are in. They will be included in the new 
policing service. They will be given opportunities to, so 
called, change and advance, despite what is an egregious, 
egregious action against David Adams.
    Second, I would just like to point very quickly to the 
issue of Special Branch and then close up.
    Much could be said about the violations that have occurred 
as a result of Special Branch practices. Credible allegations 
of collusion with loyalist paramilitaries have consistently 
plagued the branch, and the recent startling revelations about 
Special Branch complicity in the murder of Patrick Finucane, as 
we heard this morning, have simply refueled urgent calls for 
the government to establish an independent inquiry into the 
killing; yet there is no recommendation in the Patten report 
that Special Branch be evaluated to determine past abusive 
practices or, more significantly and something that we had 
called for, for the branch--for that particular piece of RUC to 
be disbanded and for it to be replaced with a more accountable 
unit.
    This is highly, highly problematic given the controversial 
nature of the policing undertaken by Special Branch in the 
past.
    To close, under the Patten Commission's imperative to 
forget the past, the police officers in these examples, 
potentially responsible for human rights violations as 
egregious as to the prohibition against taking the right to 
life and the prohibition against torture, are offered amnesty 
for abusive conduct and to remain on active service in the 
police. This is an insult to the concept of justice and it 
threatens to undermine extremely worthy efforts recommended in 
the report.
    Therefore, we urge the Patten Commission and the Government 
of the U.K. To reconsider--we are truly asking them to do 
something quite significant, and that is to reconsider the 
consequences of this omission and we urge the Subcommittee and 
others with a genuine interest in entrenching the rule of law 
into Northern Ireland to advocate urgently for some kind of 
mechanism to be included into this report during the 
consultation process.
    Thank you very much.
    [The prepared statement of Ms. Hall appears in the 
appendix.]
    Mr. Smith. Thank you very much for your testimony and for 
the good work that you have done for many years on this.
    We do have a vote on the floor. As a matter of fact, we 
have four of them. I would like to recess briefly. If you have 
to leave, I certainly understand it. It may take as long as 
about 35 to 40 minutes before any of us can return, if that is 
OK with you, because you have come across from London to be 
with us and we do want to hear what you have to say, Ms. 
Winter. We will be in temporary recess. If you have to go, we 
will submit questions to you in writing.
    [Recess.]
    Mr. Smith. The Subcommittee will resume its sitting. I want 
to apologize for the long delay because of the voting on the 
floor, but Ms. Winter, your comments will be disseminated 
through the hearing record, and I thank you in advance for your 
patience.

 STATEMENT OF JANE WINTER, DIRECTOR, BRITISH IRISH RIGHTS WATCH

    Ms. Winter. Thank you, Mr. Chairman, and thank you to this 
honorable Committee for inviting me to speak today, and 
particularly, Mr. Chairman, to you for your consistent concern 
about human rights issues in Northern Ireland.
    We join with our colleagues in welcoming the Patten report 
and its many positive recommendations. However, we also share 
the concerns that our colleagues have expressed today.
    I would like to concentrate if I may on just one aspect of 
the report, which is the use of plastic bullets. I would ask 
that the full report that we have submitted be read into the 
record.
    Mr. Smith. Without objection your full report will be made 
a part of the report.
    Ms. Winter. British Irish Watch is opposed to the 
deployment of plastic bullets because we regard them as a 
lethal weapon that should have no place in policing in a 
democratic society at the end of the 20th Century.
    Rubber bullets were introduced in Northern Ireland in 1970, 
and continued to be used until 1975. Plastic bullets were 
introduced in 1973. Mr. Payne has already graphically 
illustrated the size and weight of plastic bullets which are 
made of a much harder substance than rubber bullets. A plastic 
bullet fired at 50 yards distance can be fatal or cause very 
serious injury. Most plastic bullets are in fact fired at much 
closer range, even sometimes at point-blank range, and the 
guidelines for their use recommend a minimum distance of only 
20 yards.
    Problems have occurred with the manufacture and use of 
plastic bullets. Batches of them have been found to be too fast 
or too heavy for safety, and independent observers have 
observed the guns that are used to fire the bullets jamming and 
overheating when they are used repeatedly. Although intended as 
a non-lethal weapon of riot control, 17 people have died as a 
result of the use of rubber and plastic bullets.
    Rubber bullets have resulted in 3 deaths, and plastic 
bullets in 14. The ratio of deaths to bullets fired shows that 
plastic bullets are more than 4 times as deadly as rubber 
bullets, even though they were intended to be more safe.
    Of the 17 people killed by plastic bullets, there are a 
number of startling factors that come to light. All but one of 
the victims were Catholic. Nine of the 17 were age 18 or under, 
the youngest being only 10 years old. Only 5 of the victims 
were aged over 21. The majority of the victims were not 
involved in rioting at the time that they were shot. Many of 
the victims were shot at much too close a range and were struck 
in the head or the upper body in contravention of the 
guidelines then in force. Six of the victims did not die 
immediately, but lingered for between 1 and 15 days. They are a 
horrific weapon.
    According to the report of the Patten Commission, 615 
people have been injured by plastics bullets since 1981. The 
report does not give the origin of this figure but we believe 
that it is almost certainly an underestimate.
    The fact that the last fatality caused by a plastic bullet 
happened in 1989 does not indicate that plastic bullets are 
used less often, nor does it mean that they are any safer. A 
solicitor in Northern Ireland put in a submission to the Patten 
Commission concerning his professional experience of dealing 
with cases of injury caused by plastic bullets. By June 1998 he 
had settled 17 out of 24 cases arising out of the disturbances 
around the marching seasons of 1996 and 1997. None of those 
cases went to court, and yet he attained the sum of 428,000 
pounds, nearly half a million pounds, in damages for his 
clients.
    The cases that he represented involved very serious injury, 
including two people who had each lost an eye, fractured jaws, 
other eye injuries, and injuries to the back, chest, and 
abdomen.
    The guidelines for plastic bullets say that they should be 
fired so as to strike the target in the lower part of the body. 
It is obvious that in the majority of these cases, those 
guidelines were not followed. Several of the injuries were 
life-threatening and have resulted in permanent maiming and 
scarring. It is simply a matter of luck that nobody was killed.
    In April 1999 a group of five senior doctors published 
their findings concerning people who have been injured in a 
single week between the 8th and the 14th of July 1996 by 
plastic bullets. During that week 8,165 plastic bullets were 
fired throughout Northern Ireland. They treated 155 patients 
who had sustained between them 172 injuries. Forty-two patients 
had to be admitted to hospital, 3 of them to intensive care. 
The age of the patients ranged between 14 and 54 years, most of 
them being young men.
    Those doctors' findings show that at least 39 percent of 
the injuries sustained were to the upper part of the body, in 
contravention of the guidelines and they were all life-
threatening injuries. So although it is a matter of rejoicing 
that nobody has been killed since 1989; it is not a matter of 
judgment, it is a matter of luck.
    The domestic law on the use of lethal force falls short of 
the international standards set by the European Convention on 
Human Rights. Despite the fact that the guidelines for the use 
of plastic bullets have been flouted on a number of occasions, 
no member of the security forces has been prosecuted for 
causing a death in such circumstances. The use of plastic 
bullets is also contrary to the spirit and intention of the 
United Nations Basic Principles on the Use of Force and 
Firearms by Law Enforcement Officials, to which the United 
Kingdom Government subscribes. There has been much domestic and 
international concern expressed about plastic bullets.
    In May 1982 the European Parliament voted to ban the use of 
plastic bullets throughout the European Community. In 1995, the 
United Nations Committee Against Torture mentioned plastic 
bullets as a matter of concern, and in 1998 they recommended 
the abolition of the use of plastic bullet rounds as a means of 
riot control.
    There also has been concern in the U.S. Mr. Payne has 
spoken of his bill. In 1995, the Honorable John Shattuck, who 
was then the Assistant Secretary of State for Democracy, Human 
Rights and Labor called for the elimination of such deadly 
security measures as the use of plastic bullets for civilian 
crowd control. In January 1996, the international body charged 
with considering decommissioning in Northern Ireland chaired by 
former Senator George Mitchell called for a review of the 
situation with respect to the use of plastic bullets.
    In 1996, the CAJ organized systematic independent 
observation across Northern Ireland of the way that the RUC 
policed the summer marching season, and they were able to 
publish an authoritative report which highlighted a number of 
serious concerns about the RUC's actions, including their 
excessive use of plastic bullets, and the fact that again in a 
single week between the 7th and 14th of July that year, more 
than 8 times as many plastic bullets were used against 
Nationalists as were used again Unionists.
    Following the publication of the report, the government 
asked the body that inspects police services in the U.K. To 
make a particularly close study of the way in which the RUC 
deployed plastic bullets. Their report expressed concern about 
the training, the command structure, and the reporting system 
for plastic bullets, and highlighted the weaker guidelines for 
their deployment which pertained in Northern Ireland.
    Until August 1997, the guidelines for use of plastic 
bullets were not publicly available. When they were finally 
made public, it became apparent that the guidelines issued to 
the RUC and those issued to the army were not the same, despite 
the fact that both arms of the security forces frequently fired 
plastic bullets together at the same event. Although plastic 
bullets have never been used in England and Wales, guidelines 
for their use there were much more restrictive than those 
pertaining until very recently in Northern Ireland, where 17 
people have died.
    On the 1st of August, following a review of the use of 
plastic bullets by the Association of Chief Police Officers, 
new rules were brought in that will apply across the board. 
Although this tightening of the rules is welcome, it is no 
substitute for the banning of plastic bullets altogether. 
Moreover, it opens up the possibility that this lethal weapon 
will now be deployed in England and Wales as well as Northern 
Ireland, only months after the United Nations recommended the 
abolition of their use.
    There is another worrying aspect of the new guidelines. 
They define the lower part of the body as being below the rib 
cage. This does not take account of the medical evidence which 
suggests that injuries to the abdomen can be equally life-
threatening.
    On average, just over 1,000 plastic bullets were fired each 
year between 1982 and 1995. In 1996, however, 8,165 plastic 
bullets were fired in a single week during the Drumcree crisis. 
In 1997, some 2,500 plastic bullets were fired during the 
equivalent week. In 1998, 823 plastic bullets were fired. In 
1999, according to the RUC, only one plastic bullet was fired. 
Furthermore, the use of plastic bullets has decreased each year 
since 1996, although that decrease must be seen in the context 
of a sharp increase in the period 1996-1998 over the previous 7 
years.
    Obviously the decrease in the use of bullets is to be 
welcomed, but there are many reasons in the current situation 
which can account for that decrease. They include the growing 
domestic and international concern about the use of plastic 
bullets, the relative increase in the level of Unionist 
protests and the decrease in Nationalist protests. This has 
been particularly marked since 1998 when, for the first time, 
the Orange Order was prevented from marching down the Garvaghy 
Road.
    The improving climate in which civil unrest has occurred, 
as the cease-fires, imperfect as they are, have endured, and 
with the strong public support for the Good Friday Agreement, 
sustained political efforts to reach accommodation of the 
contentious marchers have helped to defuse the situation. It 
has also been the review of guidelines for the use of plastic 
bullets by the Association of Chief Police Officers, and not 
least of all, the setting up of the Patten Commission which put 
the RUC under the closest scrutiny that it has ever 
experienced. It is not surprising that we have seen a decrease 
in the use of these plastic bullets.
    The Patten Commission has expressed concern that the 
government, the police authority and the RUC have collectively 
failed to invest more time and money in a search for an 
acceptable alternative to plastic bullets. However, they have 
felt unable to recommend that they should no longer be used but 
instead have recommended that a search for an alternative 
should be intensified. They have recommended tougher guidelines 
and more accountability for their use.
    In our view, this is a disappointing stance. Plastic 
bullets have never been deployed for riot control in England 
and Wales despite the occurrence over the years of a number of 
serious and violent riots, including race riots. English police 
forces have been able to police these riots without recourse to 
plastic bullets, and although police officers, demonstrators, 
and members of the public have all been injured on occasion, 
they have still not resulted in loss of life or anything like 
the number of injuries that have been caused by plastic 
bullets. It is simply not the case that the RUC would have no 
other means at its disposal than hand-held batons or live 
ammunition were it to abandon the use of plastic bullets. 
Indeed, its claim to have fired only one plastic bullet during 
the week of Drumcree this year shows that the RUC is capable of 
policing some situations of serious public unrest without 
resorting to plastic bullets.
    In conclusion, in our opinion, once plastic bullets are 
available to a police force, their use becomes inevitable; and 
once they are used, experience shows that abuse also becomes 
inevitable. Although physically different than live ammunition, 
both in form and effect, the firing of plastic bullets from a 
weapon has the same psychological effect on police officers as 
the use of an actual firearm. They give the police officer 
concerned such a disproportionate advantage over an unarmed 
civilian, however riotous his or her behavior, that the officer 
is very likely to resort to it as a means of self-protection 
that can be operated at a relatively safe distance from any 
opponent. This may also mean that the police officers will fail 
to make use of any opportunity that may exist or arise for 
diffusing violent situations by less draconian means that might 
be attempted by unarmed officers.
    We recognize that however well trained police officers may 
be, and however tight the guidelines under which they operate, 
in the heat of the moment and especially in fear of their own 
safety or that of their colleagues, they are likely to 
overreact. Furthermore, the use of plastic bullets, especially 
if it appears to be indiscriminate, may provoke an already 
riotous crowd to become even more violent.
    A weapon that has caused so many fatal and serious injuries 
during its history is unsuitable for use in any civilized 
democracy.
    Finally, I would like, if I may, to honor the memory of 
Rosemary Nelson and Patrick Finucane, who have been mentioned 
so many times today, and say that we would like to see the 
Patten report implemented in its entirety, without cherry-
picking. But as you said this morning, Mr. Chairman, we do not 
regard it as a ceiling, we regard it as a beginning, and we 
hope that in implementing it, it will be possible to introduce 
improvements such as abolishing the use of plastic bullets. 
Thank you very much for your time and attention.
    Mr. Smith. Thank you for the excellent testimony and the 
good work that you do in Northern Ireland and elsewhere.
    [The prepared statement of Ms. Winter appears in the 
appendix.]
    Mr. Smith. Mr. Tancredo, the gentleman from Colorado, has 
joined us.
    Mr. Payne.
    Mr. Payne. In my concluding remarks, I certainly appreciate 
the three of you coming over and your testimony. As you know, I 
was there in 1996 when so many of them were shot. I went to 
Derry and was in Belfast and spoke to RUC people and it just--
the attitude is really something when they won't answer 
questions, they won't give you their names or the badge number, 
they have very short answers. They were very rude and 
intimidating to the people that I traveled with.
    Plastic bullets should be banned. I am reintroducing my 
legislation again. We are going to urge the manufacturers in 
the United States to stop manufacturing them. We are going to 
urge the British Government to stop using them. There are other 
alternatives to riot control other than shooting people with 
real bullets or shooting people with plastic bullets. Those are 
extremes, and there are many other ways to deal with crowd 
control, and I think that the RUC needs to get into the 21st 
century.
    I appreciate the Chairman for calling this very important 
hearing again. Incidentally, I met with Rosemary Nelson in 1996 
when I was there--either 1995 or 1996, I am not sure--but we 
had a meeting on people being detained without charges and so 
many things. I was here when she testified, and so we certainly 
have her memory and keep the memory of Pat Finucane alive. Also 
I keep saying that the Bloody Sunday incident of 1972 needs to 
be reopened and there should be a comprehensive restudy of 
that, reinvestigation of that situation. Thank you, Mr. 
Chairman.
    Mr. Smith. Thank you. Let me ask a couple of final 
questions and one on behalf of Mr. Gilman. He is asking how 
many of the 17 killed in Northern Ireland were engaged in 
throwing petrol bombs,as referred to by Chairman Patten. In the 
actual report, it says the unique problem which has explained 
their use in Northern Ireland is the widespread use of petrol 
bombs, glass bombs, and firearms in riot situations. Were the 
people who got killed throwing bombs? Do we know?
    Ms. Winter. The majority of them were not. As I have said, 
8 of them were children, and I think some of the circumstances 
are disputed, but it seems that only 2 of the 17 can certainly 
be said to have been involved in rioting. To the best of my 
knowledge they were throwing stones not petrol bombs. So the 
fatalities are not linked to petrol bombing, as far as I know.
    I wonder if I can make one brief comment in response to 
what Mr. Payne said with regard to identification. That is one 
recommendation, that all police officers in riot situations in 
Northern Ireland must wear clear identification. I recalled 
that Rosemary Nelson was assaulted on the Garvaghy Road in 1996 
by police officers wearing no identification, and she spoke 
publicly about that incident and she said that she had never 
been so frightened in the whole of her life.
    Mr. Smith. Let me ask, have any of you heard comments--as 
you probably know, we have an amendment that passed that links 
cooperation and training between the FBI and the RUC with 
independent investigations into the murders of Pat Finucane and 
Rosemary Nelson and also, generally speaking, to stepped-up 
protections for defense attorneys. It is in conference now. It 
is on my bill, but we are running into some flak from the 
administration as well from a few Senators.
    Would that amendment be helpful? Does it send a clear 
message? There is a mechanism by which the President would 
certify that these conditions have been met and then such a 
sharing of personnel--particularly their personnel coming here, 
mostly to Quantico, Virginia--would go forward.
    Ms. Hall. I was actually very struck by Chairman Patten's 
first point this morning about calling on all of you not to 
isolate the RUC, and I said that is an interesting place to put 
the burden, on the Committee as opposed to the RUC itself for 
creating the very conditions which led to you all coming up 
with the amendment.
    From the Human Rights Watch perspective, it is the RUC that 
is responsible for activities that have led to these types of 
sanctions and these types of proposals. Not just by yourselves; 
there have been other Western governments and other European 
bodies that have also come out with very strong statements 
against these activities.
    So I would switch the onus back onto the RUC and say given 
the egregious number of violations, given the mounting evidence 
of State-sponsored collusion in these cases, you feel that it 
is incumbent upon you and you simply have no recourse but to 
say, as does the Leahy amendment in other circumstances, that 
this government simply will not tolerate these types of 
violations without some kind of effective remedy for the 
families.
    So, I think from our perspective we support this resolution 
and we find it to be a very interesting and new way of 
approaching RUC abuses.
    Mr. Payne. One other area that I note in the past, and I 
don't know about present, but the soldiers that would be sent 
to the north of Ireland were generally young, unseasoned chaps 
who probably were frightened by tales and stories. I also 
thought that that was a bad practice, to put in inexperienced 
persons, who are not properly trained.
    Another incident is the fact that some officers, either 
police or military, who have created some questionable behavior 
in Great Britain, were transferred to the north of Ireland and 
integrated into the force there, which is also I think makes no 
sense, if you have a tense situation, to bring in people who 
have a history of bad behavior.
    Finally, the vehicles--I have never seen vehicles like that 
anywhere but in the north of Ireland. They are enough to be 
intimidating as they ride with their low running boards and the 
dragging near the ground. It reminded me of vehicles that the 
South Africans created called caspers; no other place you saw a 
vehicle like that. This vehicle is almost coming to tell you, 
``We are here, we are tough, you can't bother us or we will 
roll you over''. Those are psychological intimidations to 
people, and they should be stopped.
    Mr. Smith. One final question and then I would make a 
comment.
    I continue to believe, and I think you do as well, that the 
lack of vetting is probably the Achilles heel of the report and 
does have to be approached and handled by a future or present 
body and by the government.
    What is your take on Chris Patten's statements earlier, 
especially his ``witch hunt'' statement?
    Ms. Hall. I suspect that many people were taken aback by 
that, as I was. It is not only a poor analogy, it is very 
misplaced and very melodramatic. We must remember that most of 
the witches were innocent.
    What we are talking about in terms of a vetting process is 
something that is guarded by all of the due process rights that 
are guaranteed to every person under international law. To make 
sure that those safeguards are in place makes that analogy 
completely inappropriate.
    I think that really both Dr. Hayes and Mr. Patten need to 
be continually reminded of the inappropriateness of that, and 
the fact that vetting mechanisms as suggested by ourselves and 
the groups at this table are in place and have been in place in 
other regions of the world and other jurisdictions.
    When we met with the Patten Commission yesterday in New 
York, we told them that the one weak link in every single peace 
agreement that Human Rights Watch has looked at is the absence 
of an effective vetting mechanism. It is the one thing that has 
brought down future arrangements for policing or rearrangements 
in military relations in almost every jurisdiction. We see it 
as a critical problem in the Israeli-Palestinian issue and with 
South Africa with the 5-year amnesty for police officers.
    So I think the empirical evidence of other jurisdictions 
not having this mechanism, coupled with a very respectful but 
firm analysis of why the analogy is inappropriate, should 
really force them to drop that language from their 
justification for not vetting.
    Mr. Smith. Ms. Winter.
    Ms. Winter. I agree very much with my colleague, and I 
would also add that to describe calling to account people who 
have abused the human rights of others as a witch hunt is 
clearly inappropriate, and I think to make special pleading for 
the RUC, I believe in any society we get the police that we 
deserve, and we should keep our own police under the most 
intense scrutiny because we give them extraordinary powers that 
ordinary citizens are not allowed to have.
    For the RUC to say we are immune from scrutiny, we can get 
away with it, is to offer us a police service that we do not 
deserve, and I think the Patten Commission has left them far 
too much leeway in this respect.
    I hope in the review process that is coming up, the 
government will take the opportunity to improve upon what is in 
the Patten report and rethink this vetting issue.
    Ms. Beirne. First, on the screening process and the 
vetting, I think it is absolutely crucial; accountability is at 
the heart of getting policing right in Northern Ireland. This 
is the focus of my testimony, the last half of it, of my 
testimony to the International Relations Committee.
    This issue of dealing with past human rights abuses is at 
the heart of the issue of accountability. It ties into how do 
we make fundamental change. How can you attract Catholics, 
Nationalists, under represented groups, if there is a sense of 
impunity for past abuses? What if Michael Finucane's family 
believes that the people who colluded in the death of his 
father are still in the police service? Yet at the same time, 
people are being left in the new police service who we know 
have been involved in very, very serious human rights abuses.
    Mr. Smith. On Emergency Powers--go ahead.
    Ms. Beirne. A couple of other points. Thus on plastic 
bullets and the extent they have been solely used as a response 
to petrol bombs--as Jane said concerning the actual incidence 
of people having been killed by plastic bullets: very few of 
them were involved in riotous behavior and very few were 
involved in petrol bombing.
    This year we were in correspondence with the Chief 
Constable about the firing of plastic bullets in the Drumcree 
area when there were absolutely no petrol bombs being thrown. 
There was minor rioting by young children. Plastic bullets were 
being fired, with young children in the immediate area, and 
they were ricocheting off garden walls. So I question the 
offered statistic that was mentioned, and that they have only 
been used in cases where the security force is under serious 
attack.
    Mr. Payne's point about the Land Rovers and the general 
militarism of the police force. Patten has addressed it in 
part. The report refers to the total inappropriateness of RUC 
buildings their accessibility and the fact that they are like 
military installations. The whole force is a very militarized 
force, and it operates with Emergency Powers--Emergency Powers, 
around the world, lend themselves to abuse of human rights.
    We feel that unless the issue of police powers is tackled, 
there is a very serious risk that whatever changes are made to 
policing, it is not going to change fundamentally. Patten has 
obviously not convinced us and we have not convinced him, so we 
have to convince government in the forthcoming consultation 
process. In the criminal justice review that is taking place, 
we will push (and we would hope that the Subcommittee would 
push) to ensure that Emergency Powers is on the agenda and that 
is addressed very directly.
    As I said, Patten devoted two paragraphs to this question. 
There is absolutely no attempt to justify their stance. With 
plastic bullets there is at least some suggestion that they 
have considered other options, but Emergency Powers, are taken 
as a given. Yet if you don't tackle these abusive powers, you 
are left with very little change fundamentally in policing.
    Mr. Smith. I too was struck by how briefly they dealt with 
emergency powers. As I said in my opening, they recommend that 
the law in the North of Ireland should be the same as that in 
the rest of the U.K., and then they go on to completely undo 
that. Does this record keeping that they recommend amount to 
anything to you? If someone is committing abuse, they are not 
going to write it up.
    Ms. Beirne. At the moment we are very clear from anecdotal 
evidence that people in Nationalist areas are more likely to be 
subject to the stop-and-search procedures, but we have no hard 
data to measure that. So hard data would be an improvement. 
Obviously also it is an improvement that we get rid of 
Castlereagh and the holding centers which the United Nations 
and other bodies have been pushing for some time.
    But Patten didn't follow through the logic of his 
commitment to the assertion that policing should be based on 
the fundamental protection of human rights. That is what 
policing is about. Yet here at the heart of this are these 
Emergency Powers which all international experience says is not 
going to work. You can arrest people and deny their access to 
their solicitors and it is not surprising that ill treatment 
occurs. We have seen in the past.
    Mr. Smith. One final question that Mr. Gilman asked. Is 
there a civil right to be a policeman, as Mr. Patten suggested, 
so it is inappropriate to exclude members of the Orange Order 
from the police force? Basically if you belong to an Orange 
Order, should that preclude you from being a member of the 
police?
    Ms. Winter. In our submission to the Patten Commission, we 
argued that membership of any organization which discriminated 
against a certain section of society would be inappropriate for 
a police officer who must take an oath to serve the whole of 
the community without fear or favor.
    The Orange Order is clearly problematic in this respect. 
Therefore we felt that it would be incompatible to be a member 
of the Orange Order, and I understand that the chief constable 
himself has expressed reservations about that. So merely having 
a register of interests is not enough and we would like to see 
a situation where any police service, particularly the new 
Northern Ireland Police Service, is sensitive to the 
incompatibility of membership of certain groups with being an 
impartial police officer.
    Ms. Beirne. One thing to add there. One of the building 
blocks in Patten's report is the new oath that new and existing 
officers are to take--i.e. a commitment to uphold human rights 
of everyone within society. Yet one must at least question 
whether, given the oath that members of the Orange Order have 
to take, they can simultaneously take an oath to protect 
equally the traditions of the whole community. It is 
interesting that there wasn't an engagement in the report with 
that potential contradiction. Indeed, quite the reverse, given 
that the key argument given in the report for allowing members 
of the Orange Order was the fact that to deny them would be to 
deny access to a very large proportion of the population. But, 
in fact, that doesn't seem an overly convincing argument. As I 
said there was no discussions as to whether the Patten 
Commission itself saw any contradiction between these two 
oaths, the oath to the orange and the oath to uphold equally 
the traditions of everyone within the community.
    Mr. Smith. Would it be possible for you to get us a copy of 
that oath for it to be included in the record?
    Ms. Beirne. Yes.
    Mr. Smith. Again, I want to thank you for your excellent 
testimony. We will continue to work with you and we are greatly 
benefited by your insights, your counsel, your wisdom and your 
courage. The hearing is adjourned.
    [Whereupon, at 2 p.m., the Subcommittee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                           September 24, 1999

=======================================================================

      <plus-minus>
    [GRAPHIC] [TIFF OMITTED] T4523.001
    
    [GRAPHIC] [TIFF OMITTED] T4523.002
    
    [GRAPHIC] [TIFF OMITTED] T4523.003
    
    [GRAPHIC] [TIFF OMITTED] T4523.004
    
    [GRAPHIC] [TIFF OMITTED] T4523.005
    
    [GRAPHIC] [TIFF OMITTED] T4523.006
    
    [GRAPHIC] [TIFF OMITTED] T4523.007
    
    [GRAPHIC] [TIFF OMITTED] T4523.008
    
    [GRAPHIC] [TIFF OMITTED] T4523.009
    
    [GRAPHIC] [TIFF OMITTED] T4523.010
    
    [GRAPHIC] [TIFF OMITTED] T4523.011
    
    [GRAPHIC] [TIFF OMITTED] T4523.012
    
    [GRAPHIC] [TIFF OMITTED] T4523.013
    
    [GRAPHIC] [TIFF OMITTED] T4523.014
    
    [GRAPHIC] [TIFF OMITTED] T4523.015
    
    [GRAPHIC] [TIFF OMITTED] T4523.016
    
    [GRAPHIC] [TIFF OMITTED] T4523.017
    
    [GRAPHIC] [TIFF OMITTED] T4523.018
    
    [GRAPHIC] [TIFF OMITTED] T4523.019
    
    [GRAPHIC] [TIFF OMITTED] T4523.020
    
    [GRAPHIC] [TIFF OMITTED] T4523.021
    
    [GRAPHIC] [TIFF OMITTED] T4523.022
    
    [GRAPHIC] [TIFF OMITTED] T4523.023
    
    [GRAPHIC] [TIFF OMITTED] T4523.024
    
    [GRAPHIC] [TIFF OMITTED] T4523.025
    
    [GRAPHIC] [TIFF OMITTED] T4523.026
    
    [GRAPHIC] [TIFF OMITTED] T4523.027
    
    [GRAPHIC] [TIFF OMITTED] T4523.028
    
    [GRAPHIC] [TIFF OMITTED] T4523.029
    
    [GRAPHIC] [TIFF OMITTED] T4523.030
    
    [GRAPHIC] [TIFF OMITTED] T4523.031
    
    [GRAPHIC] [TIFF OMITTED] T4523.032
    
    [GRAPHIC] [TIFF OMITTED] T4523.033
    
    [GRAPHIC] [TIFF OMITTED] T4523.034
    
    [GRAPHIC] [TIFF OMITTED] T4523.035
    
    [GRAPHIC] [TIFF OMITTED] T4523.036
    
    [GRAPHIC] [TIFF OMITTED] T4523.037
    
    [GRAPHIC] [TIFF OMITTED] T4523.038
    
    [GRAPHIC] [TIFF OMITTED] T4523.039
    
    [GRAPHIC] [TIFF OMITTED] T4523.040
    
    [GRAPHIC] [TIFF OMITTED] T4523.041
    
    [GRAPHIC] [TIFF OMITTED] T4523.042
    
    [GRAPHIC] [TIFF OMITTED] T4523.043
    
    [GRAPHIC] [TIFF OMITTED] T4523.044
    
    [GRAPHIC] [TIFF OMITTED] T4523.045
    
    [GRAPHIC] [TIFF OMITTED] T4523.046
    
    [GRAPHIC] [TIFF OMITTED] T4523.047
    
    [GRAPHIC] [TIFF OMITTED] T4523.048
    
    [GRAPHIC] [TIFF OMITTED] T4523.049
    
    [GRAPHIC] [TIFF OMITTED] T4523.050
    
    [GRAPHIC] [TIFF OMITTED] T4523.051
    
    [GRAPHIC] [TIFF OMITTED] T4523.052
    
    [GRAPHIC] [TIFF OMITTED] T4523.053
    
    [GRAPHIC] [TIFF OMITTED] T4523.054
    
    [GRAPHIC] [TIFF OMITTED] T4523.055
    
    [GRAPHIC] [TIFF OMITTED] T4523.056
    
    [GRAPHIC] [TIFF OMITTED] T4523.057
    
    [GRAPHIC] [TIFF OMITTED] T4523.058
    
    [GRAPHIC] [TIFF OMITTED] T4523.059
    
    [GRAPHIC] [TIFF OMITTED] T4523.060
    
    [GRAPHIC] [TIFF OMITTED] T4523.061
    
    [GRAPHIC] [TIFF OMITTED] T4523.062
    
    [GRAPHIC] [TIFF OMITTED] T4523.063
    
    [GRAPHIC] [TIFF OMITTED] T4523.064
    
    [GRAPHIC] [TIFF OMITTED] T4523.065
    
    [GRAPHIC] [TIFF OMITTED] T4523.066
    
    [GRAPHIC] [TIFF OMITTED] T4523.067
    
    [GRAPHIC] [TIFF OMITTED] T4523.068
    
    [GRAPHIC] [TIFF OMITTED] T4523.069
    
    [GRAPHIC] [TIFF OMITTED] T4523.070
    
    [GRAPHIC] [TIFF OMITTED] T4523.071
    

</pre></body></html>
